App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

ETHAN JOHNSON SPRUILL,
Petitioner - Appellant,
v.
JEROLD BRAGGS, JR.,
Warden,

No. 20-6009
(D.C. No. 5:19-CV-00442-D)
(W.D. Oklahoma)

Respondent - Appellee.
-----------------------------------------------------------------------

ORDER AND JUDGMENT*
-----------------------------------------------------------------------

(Filed Oct. 1, 2020)
Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.
-----------------------------------------------------------------------

Petitioner Ethan Johnson Spruill, a prisoner in
Oklahoma state custody proceeding with the assistance of counsel, sought a Certiﬁcate of Appealability
(“COA”) to challenge the district court’s denial of his 28
U.S.C. § 2254 petition for a writ of habeas corpus. On
* This order and judgment is not binding precedent except
under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 2
June 17, 2020, we granted a COA as to one of the three
claims Mr. Spruill asserted in the petition—a Fifth
Amendment self-incrimination claims but1—we denied
the request as to the remaining two claims We now afﬁrm the district court’s denial of his self-incrimination
claim.
I.
A.

BACKGROUND

Factual Background

In January of 2014, Mr. Spruill moved into an
apartment building in Norman, Oklahoma, in a unit
directly above that of Aaron McCray, Mr. McCray’s ﬁancée, Stephanie Grantham, and their two children.
During the next month, Mr. Spruill learned that Ms.
Grantham and Mr. McCray had complained of noise
emanating from his apartment, leading to a conversation in which Mr. Spruill asked the couple to contact
him directly about future noise complaints.
On February 15, 2014, Mr. Spruill returned to his
apartment after a day of drinking After smoking marijuana in his apartment, he joined a group of people
socializing outside his apartment. Ms. Grantham approached and complained that Mr. Spruill had awoken
her children by stomping on his apartment ﬂoor (Ms.
Grantham’s ceiling). Mr. Spruill angrily denied having
stomped on the ﬂoor, told Ms. Grantham that he could

1

The Fifth Amendment’s privilege against self-incrimination
is applicable to the states through the Fourteenth Amendment’s
Due Process Clause. See Malloy v. Hogan, 378 U.S. 1, 6 (1964).

App. 3
hear her yelling at her children every night, and accused her of abusing her children.
Later, Mr. Spruill went downstairs to confront the
couple, carrying, as he always did, a revolver on his hip
pursuant to a concealed carry permit. Mr. Spruill
knocked on the door and, when the couple did not immediately admit him, Mr. Spruill again accused them
of abusing their children, called them cowards, and remarked, “It’s not like I’m going to shoot you, or am I?”
App., Vol. I at 52.
Mr. McCray ultimately opened the door, but what
happened next was the subject of divergent testimony
at trial. According to Mr. Spruill, Mr. McCray grabbed
him around the neck, pulled him into the apartment,
threw him on the ﬂoor between two chairs, and Mr.
McCray used the weight of his body to restrain Mr.
Spruill while simultaneously choking him. According
to Ms. Grantham, Mr. Spruill stumbled into the apartment, at which point Mr. McCray asked him to leave
and tried to push him out the door. Ms. Grantham further testiﬁed that only after Mr. Spruill refused to
leave did the two begin ﬁghting on the ﬂoor.
At some point during the tussle, Mr. Spruill became convinced that Mr. McCray would kill him from
the continued choking. He unholstered his revolver
and shot Mr. McCray in the chest several times, killing
Mr. McCray. Mr. Spruill returned to his apartment,
and, when the police arrived, he surrendered without
incident and immediately requested an attorney.

App. 4
Ofﬁcer Deny Oesterling transported Mr. Spruill to
the police station and escorted him to the station’s
interrogation room. At Mr. Spruill’s request, Ofﬁcer
Oesterling remained with Mr. Spruill in the interrogation room while waiting for the assigned detectives. Ofﬁcer Oesterling testiﬁed that during the drive to the
station and while the pair sat together in the interrogation room, Mr. Spruill offered several unprompted
comments about the shooting, some of which were captured in a recording initiated surreptitiously by Ofﬁcer
Oesterling.
An hour later, Detectives Corey Lambrecht and
Derek Hopkins turned on the interrogation room’s
videotape recorder and entered the room, relieving
Officer Oesterling. Mr. Spruill conversed with Detectives Lambrecht and Hopkins for about twenty
minutes, during which time he made some inculpatory
statements. The following exchange then occurred
between Detective Lambrecht and Mr. Spruill; it is
quoted at length, as it is a focal point of the instant
appeal:
1:12:00: Spruill: I’m hanging out with Elizabeth. I’m hanging out with Roger and their
son David. I say David, you know . . . Roger
lives there but don’t even smoke pot. I say
David you know he’s what 18 years old I’m
like (makes smoking gesture) “smoke a little
dope?” you know what I mean that’s . . . that’s
what I’m guilty of but I’ll be the ﬁrst one to
say hey how’d we catch Al Capone after we
went you know wet again we caught him by
tax evasion. Pot there ain’t nothing wrong

App. 5
with it and you both know it. And I know you
know it. Ummmm (laughs) I just happened to
be drunk and uhhh I heard what I hear every
goddamn night and I was drunk and as we all
know a drunk man’s words are a sober man’s
thoughts. So, I went down there. And I was out
of line. And I was meeted with (points at neck)
that . . . and this (points at arms) . . . marks.
He grabbed me and was just attacked me.
Threw me on the ground. But he had me by
the throat and I’m thinking (makes choking
noises). Alright and (laughs) and like I’m such
a pussy, like you know that’s . . . that’s being a
drunk. You knock on looking for trouble the
next thing and you’re like alright, woof, hands
up, I’m sorry bro, I didn’t mean to. He didn’t
stop. Well, I’m a law abiding citizen, I have a
permit to carry a piece. I’m being attacked and
it was just as easy as that . . . as you know Detective Lambrecht. (Makes gesture as if he’s
holding a gun and pulling the trigger) Goo,
goo, goo, goo. (shrugs) That’s all I gotta say.
1:13:33: Lambrecht: Ethan, ummm, ﬁrst of
all, I appreciate you talking and explaining
what happened. I’m glad you gave your side of
the story. I’d love to ask you some more details
about this.
1:13:44: Spruill: Ask me right now! You’re
just gonna throw me in a cell?
1:13:48:

Lambrecht: Do what?

1:13:49: Spruill:
me in a cell?

You’re just gonna throw

App. 6
1:13:50: Lambrecht: Heck no! No. I got all
night. Ummm . . . because the ofﬁcers brought
you here . . . uhhh . . . you’re in custody, you’re
in investigative detention.
1:13:58:

Spruill: That’s alright[.]

1:13:59: Lambrecht: You need to understand your Miranda rights before I can ask
you some detailed questions.
1:14:01: Spruill: Can I? Ok well see . . . I’ve
trusted. . . . I’ve given y’all enough beneﬁt of
the doubt. And I’ve[.] But since the beginning
I’ve said where’s Frank Corbois? I need my
lawyer here. But I’ve I’ve understand . . . and
I’ve said . . . I respect y’all and I’ll tell you anything, but you’re right tell me . . . how you . . .
ughhh . . . I’m a smart kid, I’m an honor student, I’m an . . . uhhh you ﬂicking know what
I mean, a ughh. . . .
1:14:24: Lambrecht: You sound very smart.
No, I I . . . uhh . . . you’re very intelligent and
I appreciate (Spruill begins speaking at this
point 1:14:27) . . . everything you’ve said.
1:14:27 Spruill (talking at the same time as
Lambrecht): I understand Miranda Rights
. . . I just
1:14:30: Lambrecht: And I’m not . . . you
know ﬁrst of all, this is the ﬁrst I’ve heard of
you asking for a lawyer just to be clear.
1:14:34: Spruill: Oh no no, because this is
the ﬁrst I’ve talked to you. I’ve been talking to
other people all night long. Yeah.

App. 7
1:14:38: Lambrecht: Did you? Ok. Well . . .
but nobody’s sat you down and asked you
questions?
1:14:42: Spruill: No, and I just happened to
take to Deny. And Deny I said Deny stay with
me tonight. Deny, I trust you. I know that you
work for the man, which you all do and I’ve
got friends who come in the meat market who
are homicide detectives in Oklahoma City, but
I looked at Deny and I saw his eyes man,
you’re alright, stay with me, please like, I
don’t know y’all and for all . . . and and I’ve
dealt with enough cops to know that it doesn’t
matter how real and how compliant you are
all you care about . . . throw his ass in jail, he
ﬂicking shot somebody, it doesn’t matter like
that’s what I know you guys as.
1:15:17: Lambrecht: If that were the case,
you’d already be booked in. I deﬁnitely want
to get more . . . a few more details from you[.]
1:15:23:

Spruill: Ask me. Ask me, please.

1:15:24: Lambrecht: Well, by law and I respect you and I respect your (can’t hear this
part because Spruill talks at same time)
1:15:26 Spruill: (Talking at same time as
Lambrecht) I need a lawyer
1:15:28 Lambrecht: Well no, no. You have
the right to refuse a lawyer and waive your
Miranda Rights.
1:15:33: Spruill: I ain’t gonna do that. I
ain’t gonna do that. That’s ﬁne. No, no, no. I

App. 8
know you’re not pushing me. And no, I know.
No.
1:15:39: Lambrecht: The . . . I can’t ask you
questions unless you waive your Miranda
Rights.
1 1:15:43: Spruill: So I got . . . I gotta have
a law . . . ok, that’s ﬁne then I’m alright. Then
so. . . .
1:15:46: Lambrecht: I’m not gonna sit here
and ask you questions. I mean you said this is
. . . you’re . . . you’re . . . you know . . . you’re
saying this is self-defense, etc. and if that’s the
case there’s deﬁnitely a lot of questions I need
to ask you (Ethan interrupts)
1:15:53:
yeah

Spruill: Well well, no no, he. . . .

1:15:55: Lambrecht: but But if you don’t
want me to ask you the questions, I won’t. I
mean
1:15:59: Spruill: Well see here’s the thing.
Can . . . can you just be straight up with me
without me signing a piece of paper?
1:16:04: Lambrecht: Well, no no, I need you
to make sure that you’re aware of your Miranda Rights[.]
1:16:07: Spruill: Oh, I’m aware. Yeah, you
have a right to remain silent. You know what
I mean? I understand all that[.]

App. 9
1:16:10: Lambrecht: I totally get it, but here
I need you, under the circumstances I need you
to sign that you’re aware of it[.]
1:16:16: Spruill: (drinking coffee) Mmmhmmm
1:16:18: Lambrecht: Cause if it were me, I
mean, if I uhhhh had shot somebody and I’m
claiming self-defense . . . again I wasn’t there I’m
just trying to interview everyone to figure out
what happened. You know if it were me and it
was truly 100% self-defense, I’d . . . I’d be wanting to talk to everyone (Can’t hear the rest because Spruill begins to speak)
1:16:30: Spruill: Officer, if it was truly selfdefense, it would have been him banging on my
door. That’s where I flicked up. Is that I went
looking for them. [ . . . ]
App., Vol. I at 127-29 (ellipses in original).
B.

Procedural History

The State ultimately charged Mr. Spruill with
ﬁrst-degree murder. The trial court denied Mr. Spruill’s
motion to suppress the recordings documenting his
custodial statements, and the recordings were presented at trial.
The jury rejected Mr. Spruill’s self-defense theory,
but declined to convict him of ﬁrst-degree murder, instead ﬁnding he committed the lesser-included offense
of ﬁrst-degree manslaughter. The jury recommended a
23-year sentence, which the trial court imposed. Mr.
Spruill appealed.

App. 10
1. OCCA’s Decision to Admit Mr. Spruill’s
Statements
On direct appeal to the Oklahoma Court of Criminal Appeals (“OCCA”), Mr. Spruill raised three constitutional challenges to the validity of his conviction,
including a claim that he was deprived of his privilege
against self-incrimination by the admission at trial of
custodial statements made in response to police interrogation. By summary opinion, the OCCA rejected
each challenge and afﬁrmed his conviction.
The OCCA reasoned, in relevant part, as follows:
The trial court did not abuse its discretion in denying the motion to suppress [Mr.
Spruill’s] statements. Johnson v. State, 2012
OK CR 5, ¶ 11, 272 P.3d 720, 726 (reciting
standard of review for motion to suppress);
Mitchell v. State, 2011 OK CR 26, ¶ 13, 270
P.3d 160, 169 (same). “The Fifth Amendment
right [to counsel] arises when one who is in
custody is interrogated.” Taylor v. State, 2018
OK CR 6, ¶ 6, P.3d (citing Miranda v. Arizona, 384 U.S. 436, 469-70, 86 S. Ct. 1602,
1625-26, 16 L. Ed. 2d 694 (1966)). “Under
Miranda, no statement obtained through
custodial interrogation may be used against a
defendant without a knowing and voluntary
waiver of those rights.” Taylor, 2018 OK CR 6,
¶ 6 (citing Miranda, 384 U.S. at 444, 86 S. Ct.
at 1612).
The record shows that [Mr. Spruill] was
in custody at the time of his various recorded

App. 11
statements; that [Mr. Spruill] requested the
presence of counsel repeatedly starting at the
moment he was arrested in front of his apartment; that [Mr. Spruill’s] statements were unwarned-that is, authorities never read him
the warning mandated by Miranda, 384 U.S.
at 479, 86 S. Ct. at 1630; and that [Mr. Spruill]
refused to sign any waiver indicating that
he understood his rights. However, the record
also shows that [Mr. Spruill’s] statements
were not made in response to interrogation
from authorities. See Rhode Island v. Innis,
446 U.S. 291, 300-01, 100 S. Ct. 1682, 168990, 64 L. Ed. 2d 297 (1980) (the term “interrogation” for Miranda purposes “refers not
only to express questioning, but also to any
words or actions on the part of the police
(other than those normally attendant to arrest and custody) that the police should know
are reasonably likely to elicit an incriminating response from the suspect.”). Rather, [Mr.
Spruill’s] statements were volunteered to
virtually anyone who would listen while he
was at the police department. Volunteered
statements of any kind are not barred by
the Fifth Amendment. Miranda, 384 U.S. at
478.
“Once a suspect in custody has asserted
his right to speak only through counsel, all attempts at interrogation must cease. A suspect
can, however, change his mind and decide to
speak to police without counsel.” Underwood
v. State, 2011 OK CR 12, ¶ 31, 252 P.3d 221,
238 (internal citation omitted). Here, the
State met its burden to prove that [Mr.

App. 12
Spruill’s] statements were the product of an
essentially free and unconstrained choice by
[Mr. Spruill]. Id., 2011 OK CR 12, ¶ 33, 252
P.3d at 238. There is no constitutional prohibition to admission of these statements at
trial despite [Mr. Spruill’s] requests for counsel, see Frederick v. State, 2001 OK CR 34,
TR 92-93, 37 P.3d 908, 934, or his intoxication. Coddington v. State, 2006 OK CR 34,
¶ 38, 142 P.3d 437, 448. [Mr. Spruill’s] argument that he was uninformed of his rights
and fearful of the authorities when he made
these statements is also not supported by
the record.
App. Vol. I, at 86-88.
2. District Court’s Decision
Less than a year later, Mr. Spruill ﬁled the instant
habeas petition in federal district court, raising the
same three constitutional challenges rejected by the
OCCA. The district court denied relief on all three
claims, and further declined to grant Mr. Spruill a
COA. Regarding the self-incrimination claim, the district court reasoned as follows:
After careful consideration of the record, the
Court ﬁnds that [Mr. Spruill] has failed to
overcome the presumption of correctness of
the OCCA’s ﬁndings. [Mr. Spruill] concedes
“there were some volunteered statements,”
and argues in a conclusory manner “there
were numerous incriminating statements that
were obtained over objection, contrary to

App. 13
Supreme Court precedents.” [Mr. Spruill] does
not point to clear and convincing evidence
that any particular statement was not volunteered or any particular request for counsel
was not abandoned. [Mr. Spruill] instead contends the police ofﬁcers “strategically engaged
in conduct speciﬁcally designed to cause [him]
to make incriminating statements in their
presence” and this “calculated scheme . . .
[was] the functional equivalent of questioning” as deﬁned by the Supreme Court in Innis.
However, the OCCA unequivocally rejected
[Mr. Spruill’s] view of the evidence; the
OCCA expressly found that his incriminating statements “were not made in response
to interrogation” and, in so doing, specifically referenced Innis and its deﬁnition of
“the term ‘interrogation’ for Miranda purposes.” The Court ﬁnds that [Mr. Spruill] has
failed to show that the OCCA made an unreasonable determination of the facts when it
found that [Mr. Spruill] volunteered his incriminating statements.
App. Vol. I, at 74-75 (citations omitted) (ellipsis in original).
3. This Court’s COA Decision
Mr. Spruill timely sought a COA from this court,
which we granted as to Mr. Spruill’s Fifth Amendment
self-incrimination claim and denied as to his other two
claims. We ordered brieﬁng addressing the merits of

App. 14
self-incrimination claim, and we now resolve the claim
on its merits.
II.

STANDARD OF REVIEW

Mr. Spruill raised his ﬁrst self-incrimination claim
on direct appeal, and the OCCA denied the claim on its
merits. Under the Antiterrorism and Effective Death
Penalty Act (“AEDPA”), a petition for writ of habeas
corpus will not be granted with respect to any claim
that was adjudicated on the merits in state court unless the adjudication of the claim:
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d)(1)–(2).
“A state-court decision that correctly identiﬁes the
governing legal rule but applies it unreasonably to the
facts of a particular prisoner’s case certainly would
qualify as a decision ‘involv[ing] an unreasonable
application of . . . clearly established Federal law.’ ”
Williams v. Taylor, 529 U.S. 362, 407-08 (2000) (alterations in original) (quoting 28 U.S.C. § 2254(d)(1)).
The inquiry is “whether the state court’s application
of clearly established federal law was objectively

App. 15
unreasonable.” Id. at 409. “For purposes of § 2254(d)(1),
‘an unreasonable application of federal law is different
from an incorrect application of federal law.’ ” Harrington v. Richter, 562 U.S. 86, 101 (2011) (quoting Williams, 529 U.S. at 410); see also White v. Woodall, 572
U.S. 415, 419 (2014) (“[C]learly established federal law
for purposes of § 2254(d)(1) includes only the holdings,
as opposed to the dicta, of th[e Supreme] Court’s decisions. And an unreasonable application of those holdings must be objectively unreasonable, not merely
wrong; even clear error will not sufﬁce.” (alterations in
original) (internal citations and quotation marks omitted)).
The standard set by AEDPA was designed to be
“difﬁcult to meet.” Richter, 562 U.S. at 102.
As amended by AEDPA, § 2254(d) stops short
of imposing a complete bar on federal-court
relitigation of claims already rejected in state
proceedings. It preserves authority to issue
the writ in cases where there is no possibility fairminded jurists could disagree that
the state court’s decision conﬂicts with this
Court’s precedents. It goes no further. Section
2254(d) reﬂects the view that habeas corpus
is a guard against extreme malfunctions in
the state criminal justice systems, not a substitute for ordinary error correction through
appeal. As a condition for obtaining habeas
corpus from a federal court, a state prisoner
must show that the state court’s ruling on the
claim being presented in federal court was so
lacking in justiﬁcation that there was an error

App. 16
well understood and comprehended in existing law beyond any possibility for fairminded
disagreement.
Id. at 102-03 (citations and parentheticals omitted); see
also Burt v. Titlow, 571 U.S. 12, 20 (2013) (“We will not
lightly conclude that a State’s criminal justice system
has experienced the ‘extreme malfunction[ ]’ for which
federal habeas relief is the remedy.” (quoting Richter,
462 U.S. at 102)).
A state court’s “factual determinations are presumed correct absent clear and convincing evidence to
the contrary.” Howell v. Trammell, 728 F.3d 1202, 1228
(10th Cir. 2013) (citing 28 U.S.C. § 2254(e)(1)); see also
Wood v. Allen, 558 U.S. 290, 301 (2010) (“[A] state-court
factual determination is not unreasonable merely because the federal habeas court would have reached a
different conclusion in the ﬁrst instance.”).
III.

ANALYSIS

Mr. Spruill argues that both 28 U.S.C. § 2254(d)(1)
and (d)(2) are implicated by the OCCA’s decision to admit inculpatory statements he made while in police
custody. First, he asserts that he is entitled to relief
under 28 U.S.C. § 2254(d)(1) chieﬂy because the OCCA
unreasonably applied the Supreme Court’s decision in
Rhode Island v. Innis, 446 U.S. 291 (1980). Second, he
argues that he is entitled to relief under 28 U.S.C.
§ 2254(d)(2) because the OCCA’s decision was based on
an unreasonable determination of the facts in light of
the evidence presented at trial. Speciﬁcally, Mr. Spruill

App. 17
states the evidence showed that although he repeatedly requested counsel, he was never given Miranda
warnings nor provided with counsel before being interrogated.2
In support of his argument, Mr. Spruill highlights
the following language in Innis:
[T]he Miranda safeguards come into play
whenever a person in custody is subjected to
either express questioning or its functional
equivalent. That is to say, the term ‘interrogation’ under Miranda refers not only to express
questioning, but also to any words or actions
on the part of the police (other than those normally attendant to arrest and custody) that
the police should know are reasonably likely
to elicit an incriminating response from the
suspect.
Innis, 446 U.S. at 300-01 (footnotes omitted).
The relevant facts in Innis were as follows. A taxicab driver who had been robbed by a man wielding a
sawed-off shotgun identiﬁed a picture of Mr. Innis as
that of his assailant. Id. at 293. A police ofﬁcer spotted
Mr. Innis, who was unarmed, arrested him, and advised him of his Miranda rights. Id. at 293-94. When
2

Although Mr. Spruill suggests his latter argument falls under 28 U.S.C. § 2254(d)(2), rather than (d)(1), he does not dispute
the factual ﬁndings in his case. To the extent Mr. Spruill argues
that the police ofﬁcers’ statements and conduct constituted an “interrogation,” his objection to the OCCA’s decision is not a factual
one but rather an objection to the application of law to the facts
in his case.

App. 18
other ofﬁcers arrived at the arrest scene, Mr. Innis was
twice again provided with Miranda warnings, after
which he told ofﬁcers that he wished to speak with a
lawyer. Id. at 294. Mr. Innis was then placed in a police
vehicle with three ofﬁcers and driven to the police station. Id. While en route to the station, two of the ofﬁcers engaged in a conversation between themselves
concerning the missing shotgun. Id. at 294-95. One of
the ofﬁcers stated that there were “a lot of handicapped
children running around in this area,” and “God forbid
one of them might ﬁnd a weapon with shells and they
might hurt themselves.” Id. Mr. Innis interrupted the
conversation, stating that the ofﬁcers should turn the
police car around so he could show them where the gun
was located. Id. at 295. Upon returning to the scene of
the arrest, where a search for the shotgun was in progress, Mr. Innis was again advised of his Miranda
rights. Id. He replied that he understood those rights
but stated that he “wanted to get the gun out of the
way because of the kids in the area,” and he then led
the police to the shotgun. Id.
The Supreme Court held that Mr. Innis was not
interrogated, within the meaning of Miranda. Id. at
302. The Court first noted that “the special procedural safeguards outlined in Miranda are required not
where a suspect is simply taken into custody, but rather where a suspect in custody is subjected to interrogation.” Id. at 300. It went on to deﬁne “interrogation”
using the language quoted supra. Applying that deﬁnition to the facts before it, the Court held that “[i]t cannot be said . . . that [the officers] should have known

App. 19
that their conversation was reasonably likely to elicit
an incriminating response” from Mr. Innis. Id. at 302.
It reasoned that there was “nothing in the record to
suggest that the ofﬁcers were aware that [Mr. Innis]
was peculiarly susceptible to an appeal to his conscience concerning the safety of handicapped children,”
nor to suggest that the police knew that he was “unusually disoriented or upset at the time of his arrest.”
Id. at 302-03. The Court further contrasted the ofﬁcers’
conversation, which consisted of “no more than a few
off hand remarks,” with a “lengthy harangue in the
presence of the suspect.” Id. at 303. Finally, the Court
rejected Mr. Innis’s contention that, under the circumstances, the ofﬁcers’ comments were “particularly
evocative.” Id. (internal quotation marks omitted). Although the Court acknowledged that Mr. Innis was
“subjected to subtle compulsion,” it concluded that this
compulsion could not be equated to interrogation—it
was neither express questioning nor its “functional
equivalent.” Id. at 300-03.
Here, Mr. Spruill argues that Detective Lambrecht’s “infamous statement”—“if it were me and I’d
shot someone claiming to be self-defense, . . . I’d be
wanting to talk to everyone”—constituted interrogation after Mr. Spruill had requested counsel and had
not waived his right thereto. Aplt. Reply Br. at 7 (quoting App. Vol. I, at 129). He further points out that
“[c]ontrary to the facts in [his] case, Mr. Innis was
given his full Miranda warnings four (4) times” before
making inculpatory statements; Mr. Spruill “was never
given Miranda warnings.” Aplt. Br. at 17-18.

App. 20
Although we found that Mr. Spruill’s self-incrimination claim was “debatable” for COA purposes,3 we
cannot conclude that he is entitled to relief under the
highly deferential standard we must apply to the state
court’s adjudication on the merits of his claim. The
OCCA correctly identiﬁed the governing legal rules.
Speciﬁcally, it noted that under Miranda and its progeny, no statement obtained through custodial interrogation may be used against a defendant without a
knowing and voluntary waiver of those rights; an “interrogation” for Miranda purposes refers not only to
express questioning by police, but also to other words
and actions that are reasonably likely to elicit an incriminating response; and (3) once a suspect in custody
has asserted his right to speak only through counsel,
all attempts at interrogation must cease. Based on its
review of the record, the OCCA concluded that Mr.
Spruill’s custodial statements “were not made in response to interrogation,” thereby removing them from
the Fifth Amendment’s protective ambit. App. Vol. I, at
87. Rather, his “statements were volunteered to virtually anyone who would listen while he was at the police department.” Id. It accordingly afﬁrmed the trial
3

As noted in our previous decision, under AEDPA, a COA
may issue if a petitioner “demonstrate[s] that reasonable jurists
would ﬁnd the district court’s assessment of the constitutional
claims debatable or wrong.” Miller-El v. Cockrell, 537 U.S. 322,
338 (2003) (quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
A “claim can be debatable [for COA purposes] even though every
jurist of reason might agree, after the COA has been granted and
the case has received full consideration, that petitioner will not
prevail.” Buck v. Davis, 137 S. Ct. 759, 774 (2017) (quoting MillerEl, 537 U.S. at 338).

App. 21
court’s denial of Mr. Spruill’s motion to suppress these
statements.
This ruling was not “so lacking in justiﬁcation that
there was an error well understood and comprehended
in existing law beyond any possibility for fairminded
disagreement.” Richter, 562 U.S. at 103. The record
conﬁrms that Mr. Spruill was talkative with the ofﬁcers, especially in conversations with Ofﬁcer Oesterling,
whom Mr. Spruill repeatedly asked to remain with him
in the interrogation room. In response to Detective
Lambrecht’s question whether any ofﬁcer had “sat you
down and asked you questions,” Mr. Spruill responded
“No, and I just happened to take to Deny [i.e., Ofﬁcer
Oesterling]. And . . . I said Deny stay with me tonight.”
App. Vol. I, at 128. Mr. Spruill was also loquacious with
Mr. Lambrecht, at one point speaking to him in a seeming stream of conscious for over a minute and a half,
with his statements ﬂowing uninterrupted from an admission to smoking marijuana earlier in the evening,
to commentary on how Al Capone was apprehended, to
a description of the altercation between himself and
Mr. McCray. Id. at 127.
Regarding Detective Lambrecht’s statement that
if he were “claiming self-defense . . . [he’d] be wanting
to talk to everyone,” App. Vol. I, at 129, there is a possibility for fairminded disagreement as to whether
Mr. Lambrecht should have known that this comment
was “reasonably likely to elicit an incriminating response” from Mr. Spruill, under the circumstances
of this case. Innis, 446 U.S. at 301. Mr. Lambrecht’s
comment could be construed—and apparently was

App. 22
construed, by the OCCA—as more analogous to an “off
hand remark[ ]” constituting “subtle compulsion,” than
to “express questioning or its functional equivalent”
constituting interrogation. See id. at 301-03. It was
certainly a far cry from the “lengthy harangue in the
presence of [a] suspect” that the Innis court distinguished, and in light of Mr. Spruill’s previous loquaciousness with the officers on all manner of topics, it
cannot necessarily be said that the comment was “particularly evocative,” under the circumstances. Id.
Thus, even if this court might have decided otherwise
had we considered the issue de novo, the OCCA’s conclusion that Mr. Lambrecht’s statement did not qualify as “interrogation,” in the context of the record as a
whole, was not an unreasonable application of Supreme Court precedent, including Innis. And because
Mr. Spruill was not subjected to an interrogation, Miranda did not require suppression of his custodial
statements.
In sum, Mr. Spruill has not shown that the
OCCA’s ruling “was so lacking in justification that
there was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Richter, 562 U.S. at 103.
As such, we may not grant federal habeas relief.

App. 23
IV.

CONCLUSION

For the reasons stated, we AFFIRM the district
court’s decision denying Mr. Spruill’s 28 U.S.C. § 2254
petition for a writ of habeas corpus.
Entered for the Court
Carolyn B. McHugh
Circuit Judge

App. 24
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

ETHAN JOHNSON SPRUILL,
Petitioner - Appellant,
v.
JEROLD BRAGGS, JR.,
Warden,

No. 20-6009
(D.C. No. 5:19-CV-00442-D)
(W.D. Oklahoma)

Respondent - Appellee.
-----------------------------------------------------------------------

ORDER GRANTING IN PART AND
DENYING IN PART PETITIONER’S
CERTIFICATE OF APPEALABILITY*
-----------------------------------------------------------------------

(Filed Jun. 17, 2020)
Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.
-----------------------------------------------------------------------

Petitioner Ethan Johnson Spruill, a prisoner in
Oklahoma state custody proceeding with the assistance of counsel, seeks a Certiﬁcate of Appealability
* This order is not binding precedent except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 25
(“COA”) to challenge the district court’s denial of his 28
U.S.C. § 2254 petition for a writ of habeas corpus. We
grant a COA as to one of the three claims he asserts in
the petition but deny the request as to the remaining
two.
I.

BACKGROUND

In January of 2014, Mr. Spruill began residing in
an apartment building in Norman, Oklahoma, in a
unit directly above that of Aaron McCray, Mr. McCray’s
ﬁancée, Stephanie Grantham, and Aaron and Stephanie’s two children. During the next month, Mr. Spruill
learned that Ms. Grantham and Mr. McCray had complained of noise emanating from his apartment, leading to a conversation in which Mr. Spruill asked the
couple to contact him directly about future noise complaints.
On February 15, 2014, Mr. Spruill returned to his
apartment after a day of drinking. After smoking marijuana in his apartment, he joined a group of people
socializing outside his apartment. Ms. Grantham approached and complained that Mr. Spruill had awoken
her children by stomping on his apartment ﬂoor (Ms.
Grantham’s ceiling). Mr. Spruill angrily denied having
stomped on the ﬂoor, told Ms. Grantham that he could
hear her yelling at her children every night, and accused her of abusing her children.
Later, Mr. Spruill went downstairs to confront the
couple, carrying, as he always did, a revolver on his hip
pursuant to a concealed carry permit. Mr. Spruill

App. 26
knocked on the door and, when the couple did not immediately admit him, Mr. Spruill again accused them
of abusing their children, called them cowards, and remarked, “It’s not like I’m going to shoot you, or am I?”
App., Vol. I at 52.
Mr. McCray ultimately opened the door, but what
happened next was the subject of divergent testimony
at trial. According to Mr. Spruill, Mr. McCray grabbed
him around the neck, pulled him into the apartment,
threw him on the ﬂoor between two chairs, and Mr.
McCray used the weight of his body to restrain Mr.
Spruill while simultaneously choking him. According
to Ms. Grantham, Mr. Spruill stumbled into the apartment, at which point Mr. McCray asked him to leave
and tried to push him out the door. Ms. Grantham further testiﬁed that only after Mr. Spruill refused to
leave did the two begin ﬁghting on the ﬂoor.
At some point during the tussle, Mr. Spruill became convinced that Mr. McCray would kill him from
the continued choking. He unholstered his revolver
and shot Mr. McCray in the chest several times, leading to Mr. McCray’s death. Mr. Spruill returned to his
apartment, and, when the police arrived, he surrendered without incident and immediately requested an
attorney.
Ofﬁcer Deny Oesterling transported Mr. Spruill to
the police station and escorted him to the station’s interrogation room. At Mr. Spruill’s request, Ofﬁcer Oesterling remained with Mr. Spruill in the interrogation
room while waiting for the assigned detectives. Mr.

App. 27
Oesterling testiﬁed that during the drive to the station
and while the pair sat together in the interrogation
room, Mr. Spruill offered several unprompted comments about the shooting, some of which were captured in a recording initiated surreptitiously by Mr.
Oesterling.
An hour later, Detectives Corey Lambrecht and
Derek Hopkins turned on the interrogation room’s videotape recorder and entered the room, relieving Mr.
Oesterling. After Mr. Spruill conversed with Detectives
Lambrecht and Hopkins for about twenty minutes,
during which time he made some inculpatory statements, Mr. Lambrecht told Mr. Spruill that he needed
to understand his Miranda rights before Mr. Lambrecht could ask him “some detailed questions.” App.,
Vol. I at 127. Mr. Spruill responded: “I’ve given y’all
enough beneﬁt of the doubt. . . . But since the beginning I’ve said where’s Frank Corbois? I need my lawyer
here.” App., Vol. I at 127. Mr. Lambrecht responded
that “this is the ﬁrst I’ve heard of you asking for a lawyer just to be clear.” App., Vol. I at 128. Shortly thereafter, Mr. Lambrecht told Mr. Spruill that he “deﬁnitely
want[s] to get . . . a few more details from” Mr. Spruill,
to which Mr. Spruill responded, “Ask me. Ask me, please.”
App., Vol. I at 128 (second alteration in original).
Mr. Lambrecht, apparently sensing the Miranda
inﬁrmity, then attempted to obtain a written Miranda
waiver from Mr. Spruill, explaining that “[y]ou have
the right to refuse a lawyer and waive your [Miranda]
rights.” App., Vol. I at 128. Mr. Spruill ﬂatly rejected
that proposition, responding, “I ain’t gonna do that. I

App. 28
ain’t gonna do that.” App., Vol. I at 128. Shortly after
that exchange, Mr. Lambrecht, still attempting to obtain a written waiver, told Mr. Spruill that “if it were
me and it was truly 100% self-defense, I’d . . . be wanting to talk to everyone.” App., Vol. I at 129. In response
to that remark, Mr. Spruill recounted the events and
made several statements that significantly undermined his claim of self-defense.
The State ultimately charged Mr. Spruill with firstdegree murder. In pretrial proceedings, Mr. Spruill
moved to suppress the recordings documenting the
statements he made while he was in custody. The trial
judge expressed concern with Mr. Spruill’s custodial interrogation, but ultimately denied the motion to suppress. The recordings were presented at trial, redacted
only to omit prejudicial statements Mr. Spruill had
made about Mr. McCray and Ms. Grantham.
In further pretrial proceedings, the government
moved in limine to exclude expert testimony regarding
Mr. Spruill’s use of force that he had sought to introduce in support of his theory of self-defense. Mr.
Spruill’s expert proffered his testimony, in-camera, to
the trial judge. Broadly, the expert testiﬁed that it
would have been impossible for Mr. Spruill to escape
from Mr. McCray absent shooting him. The trial judge
granted the State’s motion in limine, and the expert
testimony was not admitted at trial.
Following trial, the jury rejected Mr. Spruill’s
self-defense theory, but declined to convict him of
ﬁrst-degree murder, instead ﬁnding he committed the

App. 29
lesser-included offense of ﬁrst-degree manslaughter.
The jury recommended a 23-year sentence, which the
trial court imposed. On direct appeal to the Oklahoma
Court of Criminal Appeals (“OCCA”), Mr. Spruill raised
three constitutional challenges to the validity of his
conviction. By summary opinion, the OCCA rejected
each challenge and afﬁrmed his conviction.
Less than a year later, Mr. Spruill ﬁled the instant
habeas petition in federal district court, raising the
same three constitutional challenges rejected by the
OCCA. The district court denied relief on all three
claims, and further declined to grant Mr. Spruill a
COA. Mr. Spruill timely sought a COA from this court.
II.
A.

ANALYSIS

Certificate of Appealability

Without a COA, we do not possess jurisdiction to
review the denial of a petition for a writ of habeas corpus. Miller-El v. Cockrell, 537 U.S. 322, 335-36 (2003).
Under the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”), a COA “may issue . . . only if
the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
When, as here, “a district court has rejected the constitutional claims on the merits, the showing require
to satisfy § 2253(c) is straightforward: The petitioner
must demonstrate that reasonable jurists would ﬁnd
the district court’s assessment of the constitutional
claims debatable or wrong.” Miller-El, 537 U.S. at 338
(quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)).

App. 30
“This threshold inquiry does not require full consideration of the factual or legal bases adduced in support
of the claims.” Id. at 336. Rather, to give effect to the
statutory scheme, we undertake an abbreviated review
of the constitutional claims underlying the habeas petition when deciding whether to grant a COA.
And importantly, when, as here, the asserted
grounds for habeas relief have been adjudicated on
their merits by a state court, we must incorporate
AEDPA deference into our COA inquiry. See Dockins
v. Hines, 374 F.3d 935, 938 (10th Cir. 2004). Thus, in
applying the COA standard, we bear in mind that “a
federal habeas court may overturn a state court’s application of federal law only if it is so erroneous that
‘there is no possibility fairminded jurists could disagree that the state court’s decision conﬂicts with [the
Supreme] Court’s precedents.’ ” See Nevada v. Jackson,
569 U.S. 505, 508-09 (2013) (quoting Harrington v.
Richter, 562 U.S. 86, 102 (2011)); 28 U.S.C. § 2254(d)(1).
And a state court’s “factual determinations are presumed correct absent clear and convincing evidence to
the contrary.” Howell v. Trammell, 728 F.3d 1202, 1228
(10th Cir. 2013) (citing 28 U.S.C. § 2254(e)(1)); see
§ 2254(d)(2).
Mr. Spruill asserts three claims for habeas relief:
(1) that he suffered a deprivation of his Fifth Amendment privilege against self-incrimination1 by the trial
1

The Fifth Amendment’s privilege against self-incrimination
is applicable to the states through the Fourteenth Amendment’s
Due Process Clause. See Malloy v. Hogan, 378 U.S. 1, 6 (1964).

App. 31
court’s admission of inculpatory statements he made
while in police custody; (2) that he was convicted in the
absence of proof beyond a reasonable doubt that he was
not acting in self-defense, in violation of the Due Process Clause; and (3) that he was deprived of a meaningful opportunity to present a complete defense by the
trial court’s exclusion of expert testimony proffered in
support of his self-defense theory. We review each
claim in turn.
1. Fifth Amendment Self-Incrimination Claim
To guard against deprivations of the Fifth Amendment’s privilege against self-incrimination, the Supreme
Court has held that a request from an individual in police custody to have the presence of counsel must cause
any interrogation to “cease until an attorney is present.” Miranda v. Arizona, 384 U.S. 436, 474 (1966).
And police may not cease interrogation only to reattempt interrogation later without having procured
counsel: once an accused “expresse[s] his desire to deal
with the police only through counsel, [he] is not subject
to further interrogation by the authorities until counsel has been made available to him, unless the accused
himself initiates further communication, exchanges, or
conversations with the police.” Edwards v. Arizona, 451
U.S. 477, 484-85 (1981). “Evidence obtained as a result
of a custodial interrogation after an individual requested an attorney must be suppressed.” United
States v. Yepa, 862 F.3d 1252, 1257 (10th Cir. 2017).

App. 32
After invoking this right, a suspect may change
his mind and decide to speak without counsel to police,
but “a valid waiver of that right cannot be established
by showing only that he responded to further policeinitiated custodial interrogation even if he has been
advised of his rights.” Edwards, 451 U.S. at 484. Rather, statements made after the invocation of the Fifth
Amendment right to counsel during custodial interrogation may be admitted at trial “only on [a] ﬁnding
that [the suspect] (a) initiated further discussions with
the police, and (b) knowingly and intelligently waived
the right he had invoked.” Smith v. Illinois, 469 U.S. 91,
95 (1984). A waiver of the right to have counsel present
during interrogation will be found valid only when it
“is voluntary and constitutes ‘a knowing and intelligent relinquishment or abandonment of a known right
or privilege, a matter which depends in each case upon
the particular facts and circumstances surrounding
that case, including the background, experience, and
conduct of the accused.’ ” United States v. Willis, 826
F.3d 1265, 1277 (10th Cir. 2016) (quoting Edwards, 451
U.S. at 482).
The following uncontroverted facts are relevant to
our analysis: Mr. Spruill was in custody when he made
the contested statements to police, he unequivocally
requested counsel immediately upon arrest and several times thereafter (identifying by name the lawyer
whose presence he requested), the police made no attempt to procure that or any other attorney, the police
never apprised him of the Miranda warning, and he

App. 33
refused to sign a document purporting to waive his
Fifth Amendment rights.
The OCCA afﬁrmed the denial of Mr. Spruill’s motion to suppress on two distinct grounds. First, the
OCCA concluded Mr. Spruill’s “statements were not
made in response to interrogation from authorities,”
thereby removing them from the Fifth Amendment’s
protective ambit. App., Vol. I at 87. Second, the OCCA
concluded that Mr. Spruill changed his mind after invoking his right to the presence of counsel during interrogation.
The district court denied habeas relief on this
claim on grounds that Mr. Spruill could not overcome
AEDPA deference, § 2254(d)(1)-(2). While we agree Mr.
Spruill faces a difﬁcult task, a “claim can be debatable
[for COA purposes] even though every jurist of reason
might agree, after the COA has been granted and the
case has received full consideration, that petitioner
will not prevail.” Buck v. Davis, 137 S. Ct. 759, 774
(2017) (quoting Miller-El, 537 U.S. at 338). As explained below, it is at least debatable whether the
OCCA applied Supreme Court precedent unreasonably
and made unreasonable determinations of fact when
it concluded (1) Mr. Spruill’s inculpatory statements
were not made in response to interrogation, and (2) Mr.
Spruill changed his mind by initiating conversation
with police and further accomplished a voluntary,
knowing, and intelligent relinquishment of his right to
have counsel present during interrogation.

App. 34
“[T]he Miranda safeguards come into play whenever a person in custody is subjected to either express
questioning or its functional equivalent.” Rhode Island
v. Innis, 446 U.S. 291, 300-01 (1980). Thus, “the term
‘interrogation’ under Miranda refers not only to express questioning, but also to any words or actions on
the part of the police . . . that the police should know
are reasonably likely to elicit an incriminating response.” Id. at 301.
The OCCA recited these principles in concluding
that Mr. Spruill’s statements were not made in response to interrogation, and that rather his statements
were “volunteered to virtually anyone who would listen while he was at the police department.” App., Vol. I
at 87. The record conﬁrms that Mr. Spruill, in his intoxicated state, was talkative, especially in non-interrogative conversations with Mr. Oesterling, whom Mr.
Spruill repeatedly asked to remain with him in the interrogation room. But the record also reveals that less
than two minutes after Mr. Spruill reasserted his request for counsel for at least the third time, and further
expressly declined to waive his right to counsel, Mr.
Lambrecht told him that “if it were me and it was truly
100% self-defense, I’d . . . be wanting to talk to everyone.” App., Vol. I at 129. Reasonable jurists could conclude that, by challenging the veracity of Mr. Spruill’s
self-defense claim, Mr. Lambrecht’s statement was one
that “the police should know [is] reasonably likely to
elicit an incriminating response.” Innis, 446 U.S. at

App. 35
301.2 And indeed Mr. Lambrecht’s remark elicited from
Mr. Spruill an admission that severely undermined his
self-defense theory: “Ofﬁcer, if it was truly self-defense,
it would have been [Mr. McCray] banging on my door.
That’s where I fucked up. Ins that I went looking for
them.”3 App., Vol. I at 129 (emphasis added).
It is similarly debatable whether, as the OCCA
concluded, Mr. Spruill “change[d] his mind and decide[d]
to speak to police without counsel.” App., Vol. I at 87.
To reiterate, after invoking his right to have counsel
present during interrogation, police could only pursue
further interrogation if Mr. Spruill “(a) initiated further discussions with the police, and (b) knowingly and
intelligently waived the right he had invoked.” Smith,
2

Additionally, it is debatable whether this entire exchange
occurred in contravention of Mr. Spruill’s rights. Mr. Spruill invoked his right to have counsel present during interrogation, but
the police, not Mr. Spruill, initiated interrogation in the absence
of counsel. See Edwards v. Arizona, 451 U.S. 477, 485 (1981) (“[I]t
is inconsistent with Miranda and its progeny for the authorities,
at their instance, to reinterrogate an accused in custody if he has
clearly asserted his right to counsel.”). Yet Messrs. Lambrecht
and Hopkins appear to have done precisely that when they entered the room in which Mr. Spruill was detained and began questioning him. It is immaterial that they claimed “this [wa]s the
ﬁrst [they had] heard of [Mr. Spruill] asking for a lawyer.” App.,
Vol. I at 128. An accused need not invoke his right to have counsel
present during interrogation to every new police ofﬁcer with
whom he interacts.
3
Mr. Spruill’s admission was inculpatory because, as explained in our analysis of Mr. Spruill’s second habeas claim below,
self-defense under Oklahoma law is not available “to an aggressor
or one who voluntarily enters into a situation armed with a deadly
weapon.” App., Vol. I at 90.

App. 36
469 U.S. at 95. Mr. Spruill’s response to questions
asked after his invocation of the right cannot, without
more, satisfy this standard. Edwards, 451 U.S. at 484
(“[A] valid waiver of th[is] right cannot be established
by showing only that he responded to further policeinitiated custodial interrogation even if he has been
advised of his rights.”).
Mr. Spruill had repeatedly asserted his right to
counsel before Messrs. Lambrecht and Hopkins entered the room for the purpose of interrogating him. He
did so again during their exchange. Reasonable jurists
could thus debate whether he initiated further communications with Messrs. Lambrecht and Hopkins—the
ﬁrst showing required for a state to admit statements
obtained after invocation of the right to counsel during
interrogation. See Smith, 469 U.S. at 95.
Even if Mr. Spruill is found to have initiated this
interaction with police, reasonable jurists could disagree whether the State satisﬁed the waiver prong, requiring it to establish that Mr. Spruill—plainly
intoxicated and having never been Mirandized during
his multiple hours in custody—knowingly and intelligently relinquished his known right to have counsel
present during interrogation.
For all these reasons, Mr. Spruill is entitled to a
COA on his claim that he was deprived of his privilege
against self-incrimination by the admission at trial of
custodial statements made in response to police interrogation.

App. 37
2. Sufficiency-of-the-Evidence Due Process
Claim
Mr. Spruill next claims the State presented insufﬁcient evidence to support a guilty verdict in the face
of his self-defense theory. He asserts the prosecution
failed to carry its burden to prove, beyond a reasonable
doubt, that he was not acting in self-defense when he
shot and killed Aaron McCray.
We will ﬁnd the State’s evidence sufﬁcient to convict if, “after viewing the evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt.” Jackson v. Virginia, 443
U.S. 307, 319 (1979). When, as here, “a sufﬁciency challenge was resolved on the merits by the state courts,
we have held that AEDPA adds an additional degree
of deference, and the question becomes whether the
OCCA’s conclusion that the evidence was sufﬁcient
constituted an unreasonable application of the Jackson
standard.” Hooks v. Workman, 689 F.3d 1148, 1166
(10th Cir. 2012) (internal quotation marks omitted)
(referring to this standard of review as “deference
squared”). As explained below, it is not fairly debatable
that Mr. Spruill cannot overcome this highly deferential standard.
In rejecting his sufﬁciency-of-the-evidence challenge, the OCCA recited trial testimony from Ms.
Grantham that Mr. Spruill entered the apartment and
refused to leave. The OCCA found this evidence dispositive of Mr. Spruill’s sufﬁciency-of-the-evidence claim

App. 38
because self-defense under Oklahoma law “is not available to an aggressor or one who voluntarily enters into
a situation armed with a deadly weapon,” and a trespasser may invoke the defense only if he “has availed
himself of every reasonable means of escape from the
imminent danger of death or great bodily harm.” App.,
Vol. I at 90. Ms. Grantham’s testimony, the OCCA concluded, empowered a “rational trier of fact to ﬁnd beyond a reasonable doubt the absence of self-defense.”
App., Vol. I at 90-91.
Although we regard sufficiency-of-the-evidence
claims asserted in habeas proceedings as mixed questions of law and fact, see Maynard v. Boone, 468 F.3d
665, 673 (10th Cir. 2006), Mr. Spruill challenges only
the factual determinations underlying the OCCA’s rejection of this claim. But in his request for a COA, as
before the district court, Mr. Spruill does nothing to establish that the OCCA unreasonably determined that
the above evidence was presented at trial. Instead, he
argues the OCCA unreasonably concluded that such
evidence caused, as a matter of historical fact, his jury
to reject his self-defense theory.4 But the OCCA made
4

Mr. Spruill further argues that if the jury had been permitted to hear testimony from the self-defense expert he proffered—
the exclusion of which forms the basis of his third habeas claim—
the jury would have been without sufﬁcient evidence to reject his
self-defense theory. We disagree. Mr. Spruill’s expert did not, indeed could not, opine on the factual question of whether Mr.
Spruill failed to leave the apartment before engaging in a tussle
with Mr. McCray. Thus, even if Mr. Spruill had been permitted to
present expert testimony, it would have done nothing to counter
Ms. Grantham’s testimony—evidence the OCCA concluded sufﬁciently supported the jury’s rejection of his self-defense theory.

App. 39
no such ﬁnding, and in this context we do not probe
jury deliberations to learn which evidence the jury actually relied on in rendering the verdict. The Jackson
standard, as applied to this case, asks only whether
evidence presented at trial, viewed in the light most
favorable to the prosecution, could support a hypothetical, rational trier-of-fact’s conclusion, beyond a
reasonable doubt, that Mr. Spruill did not act in selfdefense. The OCCA answered that question in the
afﬁrmative, and Mr. Spruill has not shown how the district court’s denial of habeas relief on this claim is debatable. He is therefore not entitled to a COA.
3. Meaningful Opportunity to Present a
Complete Defense
Finally, Mr. Spruill argues he was deprived of a
meaningful opportunity to present a complete defense
due to the trial court’s exclusion of his expert’s testimony proffered to substantiate “that Mr. Spruill could
not have escaped from Mr. McCray by using any lesser
force.” Pet’r’s Request for a COA at 51.
“Whether rooted directly in the Due Process
Clause of the Fourteenth Amendment or in the Compulsory Process or Confrontation Clauses of the Sixth
Amendment, the Constitution guarantees criminal defendants ‘a meaningful opportunity to present a complete defense.’ ” Crane v. Kentucky, 476 U.S. 683, 690
(1986) (citations omitted) (quoting California v. Trombetta, 467 U.S. 479, 485 (1984)). Nevertheless, “state
and federal rulemakers have broad latitude under the

App. 40
Constitution to establish rules excluding evidence
from criminal trials.” Nevada, 569 U.S. at 509 (quoting
Holmes v. South Carolina, 547 U.S. 319,324 (2006)).
Thus, although the right to present a complete defense
“prohibits the exclusion of defense evidence under
rules that serve no legitimate purpose or that are
disproportionate to the ends that they are asserted
to promote,” there is no constitutional barrier to the
exclusion of “evidence that is repetitive . . . , only marginally relevant or poses an undue risk of harassment, prejudice, [or] confusion of the issues.” Holmes,
547 U.S. at 326-27 (alterations in original) (quoting
Crane, 476 U.S. at 689-90). The Supreme Court has
“rarely . . . held that the right to present a complete
defense was violated by the exclusion of defense evidence under a state rule of evidence.” Nevada, 569 U.S.
at 509.
On direct appeal, the OCCA afﬁrmed the trial
court’s exclusion of Mr. Spruill’s expert testimony, concluding that its probative value “was substantially outweighed by the danger of unfair prejudice, confusion of
the issues and misleading the jury.” App., Vol. I at 92.
The OCCA further found the excluded testimony “cumulative to evidence already presented at trial.” Id.
Having affirmed the evidentiary ruling, the OCCA
rejected Mr. Spruill’s argument that the exclusion
denied him an opportunity to present a complete
defense.
In seeking a COA, Mr. Spruill merely argues that
his proffered expert testimony was relevant to his

App. 41
self-defense theory.5 He makes no attempt to show that
(1) the exclusion of that evidence under a state rule of
evidence deprived him of a meaningful opportunity to
present a complete defense under the relevant framework, or (2) the OCCA’s rejection of this claim resulted
in a decision based on an unreasonable determination
of fact or involved an unreasonable application of federal law. He has thus failed to show that the district
court’s denial of this claim is fairly debatable. He is not
entitled to a COA on this claim.
III.

CONCLUSION

For the reasons stated, we GRANT Mr. Spruill a
COA on his Fifth Amendment self-incrimination claim
but DENY the a COA on his two other claims.
Appellee is ORDERED to ﬁle a response brief,
within forty-ﬁve days of the date of this order, addressing only the merits of the claim for which Mr. Spruill

5

Mr. Spruill also complains that the OCCA mischaracterized his claim and analyzed it as an admissibility issue under the
Oklahoma rules of evidence rather than a constitutional challenge. But the OCCA conducted both analyses, and after afﬁrming the exclusion under the relevant evidentiary rule, the OCCA
concluded that Mr. Spruill “was not deprived of his constitutional
right to present a complete defense.” App., Vol. I at 92.

App. 42
has been granted a COA. Mr. Spruill may reply within
twenty-one days of service of Appellee’s brief.
Entered for the Court
Carolyn B. McHugh
Circuit Judge

App. 43
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
ETHAN JOHNSON SPRUILL,)
)
Petitioner,
)
v.
)
Case No. CIV-19-442-D
)
JEORLD BRAGGS, JR.,
)
Warden,
)
Respondent.
)
ORDER
(Filed Dec. 27, 2019)
This matter comes before the Court for review of
the Report and Recommendation [Doc. No. 16] issued
by United States Magistrate Judge Gary M. Purcell
pursuant to 28 U.S.C. § 636(b)(1)(B) and (C). Judge
Purcell recommends that the Amended Petition for
Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2254
be denied. Petitioner, who is represented by counsel,
has filed a timely Objection [Doc. No. 17]. Thus, the
Court must make a de novo determination of any
part of the Report to which a specific objection is
made, and may accept, reject, or modify the recommended decision. See 28 U.S.C. § 636(b)(1); Fed. R.
Civ. P. 72(b)(3).
Petitioner, a state prisoner, seeks relief from a
2016 conviction of first-degree manslaughter and a

App. 44
23-year prison sentence.1 The Oklahoma Court of
Criminal Appeals (“OCCA”) afﬁrmed Petitioner’s conviction. See Spruill v. State, 425 P.3d 753 (Okla. Crim.
App. 2018). Petitioner timely ﬁled his original Petition
on May 14, 2019, and ﬁled the Amended Petition pursuant to Fed. R. Civ. P. 15(a)(1). He asserts three
claims: 1) denial of his constitutional right against
self-incrimination under Miranda v. Arizona, 384 U.S.
436 (1966); 2) failure to prove beyond a reasonable
doubt that he was not acting in self-defense; and 3)
denial of his constitutional right to present a defense
by excluding proposed testimony from his use-of-force
expert.
In a 22-page Report, Judge Purcell conducts a
careful examination of Petitioner’s claims and supporting arguments in light of Respondent’s answer,
the relevant state court record, and governing legal
standards. Judge Purcell concludes that all of Petitioner’s claims lack merit. Judge Purcell ﬁnds that Petitioner has not shown the state court’s determinations
were either based on unreasonable ﬁndings of fact or
unreasonable applications of clearly established federal law. Petitioner objects to all of Judge Purcell’s ﬁndings and conclusions.2

1

Petitioner was charged with ﬁrst-degree murder, but a jury
convicted him of a lesser included offense.
2
For each claim, Petitioner also purports to adopt “all authorities and arguments in his Amended Petition for Writ of
Habeas Corpus and Memorandum of Law in Support.” See Obj. at
2, 16, 19. Because a speciﬁc objection is necessary to preserve an
issue for further review, however, the Court ﬁnds this attempt at

App. 45
Claim 1:

Self-Incrimination

The death of the victim, Aaron McCray, occurred
in the apartment where he and his family lived. Petitioner resided in an apartment directly above them.
After shooting and killing Mr. McCray, Petitioner returned to his own apartment, and police ofﬁcers who
responded to the shooting found him there. Petitioner
surrendered without incident and immediately stated
he wanted an attorney. However, Petitioner (who was
intoxicated) proceeded to talk while being transported
to the police department, and volunteered his version
of events. Also, when Petitioner was taken to an interview room, he asked the transporting ofﬁcer to remain
in the room with him. Without Petitioner’s knowledge,
the ofﬁcer took a tape recorder into the room and recorded what Petitioner said.
The detectives assigned to investigate Petitioner’s
case also recorded what transpired in the interview
room. Soon after the detectives entered the room, Petitioner requested an attorney, but the ofﬁcers did not
terminate the interview. Petitioner proceeded to talk
about the incident and describe what happened. Although the detectives did not ask direct questions, one
made a comment to the effect that if he were involved
in a self-defense situation, he personally would want
to talk about it. Both before and during the interview,
Petitioner repeatedly made incriminating statements
about the shooting.
global incorporation to be ineffectual and addresses only Petitioner’s Objection.

App. 46
The OCCA summarized the relevant factual ﬁndings as follows:
The record shows that [Petitioner] was in
custody at the time of his various recorded
statements; that [Petitioner] requested the
presence of counsel repeatedly starting at the
moment he was arrested in front of his apartment; that [Petitioner] ‘s statements were unwarned – that is, authorities never read him
the warning mandated by Miranda . . . ; and
that [Petitioner] refused to sign any waiver indicating that he understood his rights. However, the record also shows that [Petitioner] ‘s
statements were not made in response to
interrogation from authorities. Rather, [Petitioner] ‘s statements were volunteered to virtually anyone who would listen while he was
at the police department. Volunteered statements of any kind are not barred by the Fifth
Amendment.
“Once a suspect in custody has asserted
his right to speak only through counsel, all attempts at interrogation must cease. A suspect
can, however, change his mind and decide to
speak to police without counsel.” Here, the
State met its burden to prove that [Petitioner]
‘s statements were the product of an essentially free and unconstrained choice by [Petitioner]. . . .
Spruill, 425 P.3d at 755 (citations omitted).
Framed by the deferential standard of 28 U.S.C.
§ 2254(d), Petitioner mounts a twofold attack on the

App. 47
OCCA’s disposition of his ﬁrst claim. He challenges
both the reasonableness of the state court’s determination of the facts in light of the evidence presented, and
the reasonableness of the state court’s application of
Miranda and other Supreme Court cases. See Obj. at
7-8, 10-15 (discussing Edwards v. Arizona, 451 U.S. 477
(1981); Davis v. United States, 512 U.S. 452 (1994); and
Rhode Island v. Innis, 446 U.S. 291 (1980)). Upon de
novo consideration, the Court fully concurs in Judge
Purcell’s analysis of this claim.
Pursuant to 28 U.S.C. § 2254(e)(1), “a determination of a factual issue made by a State court shall be
presumed to be correct. The applicant shall have the
burden of rebutting the presumption of correctness by
clear and convincing evidence.” The Tenth Circuit has
held that “[t]he presumption of correctness also applies
to factual ﬁndings made by a state court of review
based on the trial record.” Al-Yousif v. Trani, 779 F.3d
1173, 1181 (10th Cir. 2015) (internal quotation omitted). The OCCA’s critical ﬁndings in this case are that
Petitioner’s incriminating statements were not made
in response to interrogation but were volunteered, and
that he changed his mind each time he requested counsel and voluntarily decided to speak.
After careful consideration of the record, the
Court finds that Petitioner has failed to overcome the
presumption of correctness of the OCCA’s findings.
Petitioner concedes “there were some volunteered
statements,” and argues in a conclusory manner “there
were numerous incriminating statements that were
obtained over objection, contrary to Supreme Court

App. 48
precedents.” See Obj. at 13. Petitioner does not point
to clear and convincing evidence that any particular
statement was not volunteered or any particular
request for counsel was not abandoned. Petitioner
instead contends the police officers “strategically engaged in conduct speciﬁcally designed to cause [him] to
make incriminating statements in their presence” and
this “calculated scheme . . . [was] the functional equivalent of questioning” as deﬁned by the Supreme Court
in Innis. Id. at 2, 14. However, the OCCA unequivocally
rejected Petitioner’s view of the evidence; the OCCA
expressly found that his incriminating statements
“were not made in response to interrogation” and, in so
doing, speciﬁcally referenced Innis and its deﬁnition of
“the term ‘interrogation’ for Miranda purposes.” See
Spruill, 425 P.3d at 755. The Court ﬁnds that Petitioner has failed to show that the OCCA made an unreasonable determination of the facts when it found
that Petitioner volunteered his incriminating statements.
Pursuant to 28 U.S.C. § 2254(d)(1), Petitioner is
not entitled to relief unless he establishes that the
OCCA’s adjudication of his Miranda claim “resulted in
a decision that was contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United
States.” “Clearly established Federal law for purposes
of § 2254(d)(1) includes only the holdings, as opposed
to the dicta, of [the Supreme] Court’s decisions.” White
v. Woodall, 572 U.S. 415, 419 (2014) (internal quotations and alterations omitted). “An OCCA decision is

App. 49
‘contrary to’ a clearly established law if it applies a rule
different from the governing law set forth in Supreme
Court cases, or if it decides a case differently than
the Supreme Court has done on a set of materially indistinguishable facts.” Lockett v. Trammell, 711 F.3d
12218, 1231 (10th Cir. 2013) (internal quotations and
alterations omitted); see Bell v. Cone, 543 U.S. 447, 45254 (2005); Wood v. Carpenter, 907 F.3d 1279, 1289 (10th
Cir. 2018). “ ‘It is settled that a federal habeas court
may overturn a state court’s application of federal law
only if it is so erroneous that there is no possibility
fair-minded jurists could disagree that the state
court’s decision conﬂicts with [the Supreme] Court’s
precedents.’ ” Al-Yousif, 779 F.3d at 1180 (quoting Nevada v. Jackson, 569 U.S. 505, 508-09 (2013)) (alteration in Al-Yousif, internal quotations omitted); see also
Wood, 907 F.3d at 1289 (“a state court’s application of
federal law is only unreasonable if all fairminded jurists would agree the state court decision was incorrect”) (internal quotation omitted).
Upon de novo consideration of Petitioner’s claim,
the Court ﬁnds that he has not met his burden to show
the OCCA unreasonably applied clearly established
federal law. As discussed supra, the crux of Petitioner’s
argument is that the police ofﬁcers engaged in conduct
that was calculated to elicit incriminating statements
and was the “functional equivalent of questioning” under Innis. See Obj. at 14-15. He contends “coercive police tactics” resulted in “blatant Innis violations.” Id. at
15. However, Petitioner’s argument is contrary to the
OCCA’s factual ﬁnding that Petitioner’s statements

App. 50
“were volunteered to virtually anyone who would listen.” See Spruill, 425 P.3d at 755. Under Miranda, 384
U.S. at 478, “[v]olunteered statements of any kind are
not barred by the Fifth Amendment.” Therefore, the
Court ﬁnds that Judge Purcell correctly concludes Petitioner has not shown a basis for relief on his ﬁrst
claim.
B. Claim 2:

Sufficiency of the Evidence

On the date of the shooting, Petitioner knocked on
the door of the victim’s apartment and entered when
Mr. McCray opened it, either voluntarily or (according
to Petitioner) by being pulled inside. A physical confrontation ensued, and Petitioner ﬁred a loaded handgun he was carrying. Petitioner asserted at trial that
he was acting in self-defense, but the jury rejected his
claim. Petitioner now challenges the sufﬁciency of the
evidence to prove he was not acting in self-defense.
An insufﬁciency of evidence claim is governed by
the “rational fact-ﬁnder” standard announced in Jackson v. Virginia, 443 U.S. 307 (1979), which requires a
court to determine “whether, after viewing the evidence in the light most favorable to the prosecution,
any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” Id.
at 319 (emphasis in original). To assess the sufﬁciency
of the evidence, a reviewing court must “ﬁrst determine the elements of the offense and then examine
whether the evidence suffices to establish each element.” Anderson-Bey v. Zavaras, 641 F.3d 445, 448

App. 51
(10th Cir. 2011). In federal habeas proceedings, where
a sufficiency challenge was resolved on the merits
by the state courts, there is “an additional degree of
deference,” and the question becomes “whether the
OCCA’s conclusion that the evidence was sufﬁcient
constituted an unreasonable application of the Jackson standard.” Diestel v. Hines, 506 F.3d 1249, 1267
(10th Cir. 2007) (internal quotation omitted). The
Tenth Circuit “call[s] this standard of review ‘deference squared.’ ” Hooks v. Workman, 689 F.3d 1148, 1166
(10th Cir. 2012) (quoting Young v. Sirmons, 486 F.3d
655, 666 n. 3 (10th Cir. 2007)); see Torres v. Lytle, 461
F.3d 1303, 1313 (10th Cir. 2006).
To prove the offense of ﬁrst-degree manslaughter
under the circumstances of Petitioner’s case, “the State
was obligated to prove, beyond a reasonable doubt,
that [Petitioner] did not act in self-defense.” Spruill,
425 P.3d at 756 (internal quotation omitted). Id. In
analyzing this claim on direct appeal, the OCCA
summarized the trial evidence, including eyewitness
testimony from the victim’s wife, that “disputed [Petitioner’s] version of events” and “showed he was the
aggressor who instigated this entire deadly affair.”
Id. The OCCA also found that, viewing the evidence
in favor of the prosecution, Petitioner “was clearly a
trespasser” inside the victim’s apartment. Id. Under
Oklahoma law, self-defense “is not available to an aggressor or one who voluntarily enters into a situation
armed with a deadly weapon,” and “a trespasser’s right
to self-defense arises only after the trespasser has
availed himself of every reasonable means of escape

App. 52
from the imminent danger of death or great bodily
harm.” Id. Applying these legal principles to the trial
evidence, the OCCA concluded that “sufﬁcient evidence was presented at trial to allow any rational trier
of fact to ﬁnd beyond a reasonable doubt the absence
of self-defense.” Id.
Petitioner cannot persuasively argue that the
OCCA’s determination of his claim was an unreasonable application of the Jackson standard. Instead, his
challenge hinges on evidence excluded from the trial,
as argued in his third claim infra, which was “the bulk
of the evidence for a valid determination of selfdefense.” See Obj. at 16. According to Petitioner, “[t]he
very testimony that would have supported [his] selfdefense claim, was excluded by the State trial and
appellate courts.” Id. Based on the record actually presented, however, the Court ﬁnds no basis for relief on
Petitioner’s second claim.3
C. Claim 3: Exclusion of Defendant’s Expert
Petitioner asserts that by excluding the proposed
testimony of his use-of-force expert, John Boren, the
trial court violated his constitutional right to present
a complete defense. Judge Purcell characterizes this
claim as one that the state court’s evidentiary ruling
3

Petitioner also seems to argue, without expressly so stating, that the OCCA’s ﬁndings that he was a trespasser and aggressor are unreasonable factual determinations. See Obj. at 17.
To the extent this was Petitioner’s intended argument, the Court
rejects it.

App. 53
resulted in a denial of Petitioner’s right to due process,
and concludes that exclusion of Mr. Boren’s testimony
“did not make [Petitioner’s] trial fundamentally unfair.” See R&R at 21. Petitioner complains that Judge
Purcell mischaracterizes his claim and fails to address
whether his right to present a defense was violated.
See Obj. at 19-20. Upon de novo consideration of the
claim under this theory, the Court ﬁnds that Petitioner
is not entitled to relief on this ground.4
The Supreme Court has held that “the Constitution guarantees criminal defendants ‘a meaningful
opportunity to present a complete defense.’ Crane v.
Kentucky, 476 U.S. 683, 690 (1986) (quoting California
v. Trombetta, 467 U.S. 479, 485 (1984)). The Court has
“also recognized ‘that state and federal rulemakers
have broad latitude under the Constitution to establish rules excluding evidence from criminal trials’ and
“[o]nly rarely [has it] held that the right to present a
complete defense was violated by the exclusion of defense evidence under a state rule of evidence.” Nevada
v. Jackson, 569 U.S. 505, 509 (2013) (quoting Holmes v.
South Carolina, 547 U.S. 319, 324 (2006)) (internal
quotation and citation omitted).
In this case, the OCCA determined both that the
trial court properly excluded Mr. Boren’s testimony
under state evidentiary rules and that Petitioner “was
4

Because Petitioner does not challenge Judge Purcell’s
analysis of any due process claim asserted, he has waived further
review of this issue. See United States v. 2121 East 30th St., 73
F.3d 1057, 1060 (10th Cir. 1996); Moore v. United States, 950 F.2d
656, 659 (10th Cir. 1991).

App. 54
not deprived of his constitutional right to present a
complete defense.” See Spruill, 425 P.3d at 756. In so
doing, OCCA speciﬁcally referenced prior decisions applying Crane and other federal decisions. Id. at 756-57
(citing Simpson v. State, 230 P.3d 888, 895 (Okla. Crim.
App. 2010); Pavatt v. State, 159 P.3d 272, 286 (Okla.
Crim. App. 2007); and “cases cited therein”). Petitioner
attempts to show this ruling was an unreasonable application of federal law as determined by the Supreme
Court by relying solely on Crane. See Obj. at 20-21.
However, Crane involved the exclusion of “competent,
reliable evidence bearing on the credibility of a confession” that was “central to the defendant’s claim of innocence.” Crane, 476 U.S. at 690-91.
Upon de novo consideration of Petitioner’s claim
that his constitutional right to present a complete defense was violated by the exclusion of his use-of-force
expert, the Court ﬁnds that Petitioner has failed to
show that the OCCA’s application of federal law was so
erroneous that all fair-minded jurists would agree that
the state court’s decision conﬂicts with Supreme Court
precedent.
For these reasons, the Court ﬁnds no basis in Petitioner’s Objection to disagree with Judge Purcell’s
thorough analysis of the issues and Petitioner’s claims.
IT IS THEREFORE ORDERED that the Report
and Recommendation [Doc. No. 16] is ADOPTED, as
set forth herein. The Amended Petition for Writ of
Habeas Corpus Pursuant to 28 U.S.C. § 2254 [Doc. No.
7] is DENIED. A separate judgment shall be entered.

App. 55
IT IS FURTHER ORDERED that pursuant to
Rule 11(a) of the Rules Governing Section 2254 Cases,
the Court must issue or deny a certiﬁcate of appealability (“COA”) when it enters a ﬁnal order adverse to a
petitioner. A COA may issue only upon “a substantial
showing of the denial of a constitutional right.” See 28
U.S.C. §2253(c)(2). “A petitioner satisﬁes this standard
by demonstrating that jurists of reason could disagree
with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003); see also Slack v. McDaniel, 529 U.S. 473, 484
(2000). Upon consideration, the Court ﬁnds the requisite standard is not met in this case. Therefore, a COA
is denied.
IT IS SO ORDERED this 27th day of December,
2019.
/s/ Timothy D. DeGiusti
TIMOTHY D. DeGIUSTI
Chief United States
District Judge

App. 56
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
ETHAN JOHNSON SPRUILL,)
)
Petitioner,
)
v.
)
Case No. CIV-19-442-D
)
JEORLD BRAGGS, JR.,
)
Warden,
)
Respondent.
)
JUDGMENT
(Filed Dec. 27, 2019)
Pursuant to the Order adopting the magistrate
judge’s Report and Recommendation, the Amended Petition Under 28 U.S.C. § 2254 for a Writ of Habeas Corpus is denied. The Court therefore enters judgment in
favor of the respondent, Warden Jeorld Braggs, Jr. Further, a certiﬁcate of appealability is denied.
Entered this 27th day of December, 2019.
/s/ Timothy D. DeGiusti
TIMOTHY D. DeGIUSTI
Chief United States
District Judge

App. 57
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
ETHAN JOHNSON SPRUILL,)
)
Petitioner,
)
v.
) No. CIV-19-442-D
)
GERALD BRAGGS, JR.,
)
Warden,
)
Respondent.
)
REPORT AND RECOMMENDATION
(Filed Aug. 30, 2019)
Petitioner, a state prisoner appearing through
counsel, has ﬁled an Amended Petition for a Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254. Doc. No.
7. Respondent has responded to the Petition, Doc. No.
10, and ﬁled the relevant state court records, including
the transcripts of the trial and pretrial proceedings.
Petitioner replied to the response. Doc. No. 15. The
matter has been referred to the undersigned Magistrate Judge for initial proceedings consistent with 28
U.S.C. § 636(b)(1)(B). For the following reasons, it is
recommended that the Petition be denied.
I.

Background

In January 2014, Ethan Spruill moved into unit 16
of the Cherrystone Apartments in Norman, Oklahoma.
The apartment he shared with his cousin was directly
above the apartment where Aaron McCray lived with

App. 58
his ﬁancé, Stephanie Grantham, and two children. Mr.
Spruill testiﬁed that as he was moving in, he saw Ms.
Grantham standing with her arms folded over her
chest glaring at him.
During the next month, Mr. Spruill learned that
the couple had called the apartment manager to complain about noise from his apartment. Mr. Spruill had
been sleeping most of the day he received that message, and he went to the couple’s apartment to explain
he had not made the noise. Both Ms. Grantham and
Mr. Spruill testiﬁed the three had a polite conversation
during which Mr. Spruill asked the couple to please
come to him ﬁrst before calling the apartment manager about any complaints they had.
On February 15, 2014, Mr. Spruill returned from
work to the apartment complex about 7:00 p.m. He had
been drinking during the day at work and on the way
home. As Mr. Spruill was walking to the apartment
complex from the parking lot, he found the couple who
lived next door to Mr. McCray sitting outside their
apartment smoking and drinking. Mr. Spruill asked
one of them for a cigarette. He stayed downstairs with
the couple, smoking and drinking beer and vodka with
them.
Around 10:00 p.m., Mr. McCray returned home
from work. Mr. Spruill had just started upstairs and
was on the second-ﬂoor landing when he saw Mr.
McCray walking from the parking lot to the apartment
complex. Mr. Spruill testiﬁed that, in an attempt to be
friendly, he greeted Mr. McCray, asking if they were

App. 59
O.K. The two men had a short, friendly conversation,
after which Mr. McCray went into his apartment. Mr.
Spruill walked to his apartment, went inside and
smoked marijuana. By this time, Mr. Spruill was intoxicated.
After smoking marijuana, Mr. Spruill came out
of his apartment and found several people socializing
on the upstairs landing. Shortly after he joined the
group on the upstairs landing, Ms. Grantham approached him, asked him if he was the occupant of
unit 16, and then asked him if he knew what time it
was. She complained that he had awakened her children by stomping on the floor of his apartment. Mr.
Spruill became angry, denied stomping on the floor,
told Ms. Grantham that he heard her yelling at
her children every night, and accused her of child
abuse.
Ms. Grantham testiﬁed that Mr. McCray called
911 because he had heard the exchange between Ms.
Grantham and Mr. Spruill. According to Ms. Grantham, the dispatcher let them know the police were on
their way. Having undressed when he got home, Mr.
McCray put on jeans, a shirt, and the steel-toed boots
he had worn to work. Mr. Spruill, unaware that Mr.
McCray had called the police, went downstairs to confront the couple. Mr. Spruill had a concealed carry permit, and he had his revolver on his left hip in a holster
as he always did. Mr. Spruill beat on the door of Mr.
McCray’s apartment, repeated his accusations of child
abuse, called the couple cowards and said, “It’s not like
I’m going to shoot you, or am I?” He testiﬁed that he

App. 60
made the last statement in a sarcastic tone, thinking
that the couple would never open the door.
But Mr. McCray did open the door, and Mr. Spruill
either stumbled into the apartment or was grabbed
around the neck by Mr. McCray and pulled into the
apartment. Ms. Grantham called 911 as the two men
struggled and stayed on the phone with the dispatcher
during the ensuing ﬁght. The men fell between two
pieces of furniture, ending up with the 326-pound Mr.
McCray on top of Mr. Spruill, pinning him down. Mr.
Spruill testiﬁed that Mr. McCray was choking him and
he was not able to get away. Convinced Mr. McCray was
going to choke him to death, Mr. Spruill pulled his gun
from the holster on his left hip and shot Mr. McCray in
the chest several times. Ms. Grantham testiﬁed that
Mr. McCray got up bleeding from chest wounds and
slumped over a chair. Mr. Spruill returned to his apartment. When the authorities arrived, he immediately
stated he wanted an attorney and surrendered to the
police without incident.
Mr. Spruill was charged with First-Degree Murder
in the District Court of Cleveland County, Oklahoma,
Case No. CF-2014-322. He was convicted of FirstDegree Manslaughter in violation of Okla. Stat. tit. 21,
§ 715. The trial court sentenced him on July 13, 2016,
to twenty-three years’ imprisonment, the sentence recommended by the jury. He appealed his conviction to
the Oklahoma Court of Criminal Appeals (“OCCA”),
Case No. F-2016-629, raising three propositions of error: that his constitutional rights against self-incrimination were violated by the introduction of unwarned

App. 61
statements made after he had been taken into custody
and without representation by an attorney he had repeatedly requested; that the State failed to prove beyond a reasonable doubt that he did not act in selfdefense; and that he was denied his right to present his
case when the trial court refused to allow a force expert
to testify on his behalf. By Summary Opinion entered
May 17, 2018, the OCCA afﬁrmed Petitioner’s conviction. Response, Ex. 4, (Doc. No. 10-4).
II. Issues Presented
Before this Court, Mr. Spruill raises the same challenges to his conviction he raised before the OCCA:
1.

Petitioner was denied his constitutional protections against self-incrimination through a
deliberate effort by law enforcement to obtain
and record incriminating statements from an
intoxicated, unsophisticated suspect, in violation of the United States Constitution. Doc.
No. 7 at 3.

2.

The State failed to prove beyond a reasonable
doubt that Petitioner was not acting in selfdefense at the time he shot and killed Aaron
McCray, making the evidence insufﬁcient to
support his conviction in violation of the Due
Process Clause of the United States Constitution. Id. at 4.

3.

The Petitioner’s constitutional right to present a defense was denied when the trial court
and the Oklahoma Court of Criminal Appeals
refused to permit the defense to introduce the

App. 62
testimony of an expert on force to aid and assist the jury in its determination of whether
Petitioner was acting in self-defense during
the shooting incident. Id.
III. Standard of Review of Constitutional Claims
Under the Antiterrorism and Effective Death Penalty Act (“AEDPA”), a federal court cannot grant habeas
relief with respect to a state prisoner’s constitutional
claim that was adjudicated on the merits in state court
proceedings unless the state court decision (1) was
“contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by
the Supreme Court of the United States,” or (2) “was
based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. §2254(d). AEDPA directs courts to
“ensure a level of ‘deference to the determinations of
state courts, provided those determinations did not
conﬂict with federal law or apply federal law in an unreasonable way.” Williams v. Taylor, 529 U.S. 362, 386
(2000) (quoting H.R. Conf. Rep. No. 104-518, p. 111
(1996)).
Under this standard, a writ of habeas corpus will
issue only if “a state court’s application of federal law
. . . is so erroneous that there is no possibility fairminded jurists could disagree that the state court’s decision conﬂicts with [the Supreme] Court’s precedents.”
Nevada v. Jackson, 569 U.S. 505, 508-09 (2013) (quotations and citations omitted). Even a showing of ‘clear
error’ will not sufﬁce.” White v. Woodall, 572 U.S. 415,

App. 63
419 (2014) (quoting Lockyer v. Andrade, 538 U.S. 63,
7576 (2003)).
“[W]hether a state court’s decision was unreasonable must be assessed in light of the record the [state
appellate] court had before it.” Holland v. Jackson, 542
U.S. 649, 652 (2004). Consequently, federal habeas “review is limited to the record that was before the state
court that adjudicated the claim on the merits.” Cullen
v. Pinholster, 563 U.S. 170, 181 (2011). In reviewing a
state appellate court’s decision, the state court’s ﬁndings of fact are presumed correct and entitled to deference. 28 U.S.C. § 2254(e)(1).
IV. Analysis
A. Ground One: Statements Admitted at
Trial
It is undisputed that Mr. Spruill repeatedly requested an attorney after the shooting. When he ﬁrst
came in contact with the authorities at the apartment
complex, he stated he wanted an attorney. Several
times after he was taken into custody, including when
detectives came to interrogate him, he again asked for
an attorney. Nothing in the record indicates the authorities involved made any attempt to comply with
his request. It is also undisputed that Mr. Spruill was
never fully informed of his rights under the Fifth
Amendment and Miranda v. Arizona, 384 U.S. 436,
469-70 (1966). Nevertheless, the recordings, redacted
only to exclude some highly prejudicial statements Mr.
Spruill had made about the victim and Ms. Grantham,

App. 64
were admitted as evidence during the trial and played
for the jury.
The trial court entertained Mr. Spruill’s Motion to
Suppress the audio and video tape recordings of Mr.
Spruill’s custodial statements. Transcript of Proceedings had Thursday, March 10, 2016, Before the Honorable Tracy Schumacher, District Judge (“Mot. Tr.”) At
the hearing, Ofﬁcer Denny Osterling testiﬁed he transported Mr. Spruill to the Norman Police Department.
Although he had a card with the Miranda warnings
with him, Ofﬁcer Osterling did not read the warnings
to Mr. Spruill. Mot. Tr. at 20-24. Ofﬁcer Osterling testiﬁed that during the short trip to the police department, he attempted to engage in conversation with Mr.
Spruill by asking only general questions to get Mr.
Spruill’s mind off the events of that evening But Mr.
Spruill, according to Ofﬁcer Osterling, repeatedly and
voluntarily told his version of what had happened at
the apartment complex. The exchange between the two
in the police car was not recorded because Ofﬁcer Osterling’s tape recorder was broken.
When they arrived at the police department, Mr.
Spruill was taken to an interrogation room. He asked
Ofﬁcer Osterling to stay in the room with him. Ofﬁcer
Osterling borrowed a tape recorder from another ofﬁcer, joined Mr. Spruill in the interrogation room and
secretly recorded everything Mr. Spruill said. Mot. Tr.
at 30-33.
About an hour later, Detectives Corey Lambrecht
and Derek Hopkins turned on the videotape recorder

App. 65
and entered the interrogation room. Mr. Spruill told
them he had requested an attorney. Detective Lambrecht testiﬁed that he started to read the Miranda
warnings, but Mr. Spruill said, “I don’t need that. I’ll
just talk to you.” Mot. Tr. 97-98. When asked to sign the
form acknowledging he understood his rights, Mr.
Spruill said, “I’m aware. You have the right to remain
silent, you know what I mean. I understand all that.”
Id. at 98.” Nevertheless, Mr. Spruill refused to sign the
form. Despite asking for an attorney, however, he continued to talk about the incident at the apartment
complex. Id. at 98. Detective Lambrecht testiﬁed Mr.
Spruill asked if he could be straight up with him without signing the paper. Id. Mr. Spruill then continued to
talk about the incident without being asked direct, investigatory questions.
When questioned by the defense, however, Detective Lambrecht admitted that his report noted he had
“told Ethan that if this were me and if this were truly
a self-defense situation, I personally would want to
talk to anyone.” Mot. Tr. at 129. After that comment,
Mr. Spruill described the incident again. The trial
court deferred the decision on the motion and asked for
more brieﬁng.
In a subsequent proceeding, the trial judge expressed her concern with the interrogation process, but
ultimately determined that Mr. Spruill never actually
invoked his right to an attorney because after each request, he continued to voluntarily speak, without being
questioned. The trial court concluded Mr. Spruill abandoned each request for an attorney directly after he

App. 66
made the requests. Transcript of Proceedings had
Thursday, March 31, 2016 at 9-10. The trial judge
agreed with defense counsel that the jury should be instructed to determine whether the statements were
made voluntarily, beyond a reasonable doubt, before
considering them as evidence. Id. at 10-11.1
The Fifth and Fourteenth Amendments provide
the accused a right to have counsel present during custodial interrogation. In Miranda v. Arizona, the Supreme Court held:
If the individual states that he wants an attorney, the interrogation must cease until an
attorney is present. At that time, the individual must have an opportunity to confer with
the attorney and to have him present during
any subsequent questioning If the individual
cannot obtain an attorney and he indicates
that he wants one before speaking to police,
they must respect his decision to remain silent.
Miranda, 384 U.S. at 474. The Supreme Court expanded on that principle in Edwards v. Arizona, 451
U.S. 477, 481 (1981), concluding that once an individual who is subjected to custodial interrogation expresses a desire for counsel, that individual is “not
subject to further interrogation by the authorities until
counsel has been made available to him, unless the
1

The record reﬂects that the trial court read Instruction 16
to the jury, which informed the jury they should consider Mr.
Spruill’s custodial statements only if they determined beyond a
reasonable doubt that the comments were made voluntarily.

App. 67
accused himself initiates further communication, exchanges, or conversations with the police.” Edwards,
451 U.S. at 484-85; Davis v. United States, 512 U.S. 452,
458 (1994) (“[I]f a suspect requests counsel at any time
during the interview, he is not subject to further
questioning until a lawyer has been made available
or the suspect himself reinitiates conversation.”). But
in Rhode Island v. Innis, The Supreme Court deﬁned
“interrogation” to include statements and actions of
authorities in addition to direct questions:
[T]he Miranda safeguards come into play
whenever a person in custody is subjected to
either express questioning or its functional
equivalent. That is to say, the term “interrogation” under Miranda refers not only to express
questioning, but also to any words or actions
on the part of the police (other than those normally attendant to arrest and custody) that
the police should know are reasonably likely
to elicit an incriminating response from the
suspect. The latter portion of this deﬁnition
focuses primarily upon the perceptions of the
suspect, rather than the intent of the police.
This focus reﬂects the fact that the Miranda
safeguards were designed to vest a suspect in
custody with an added measure of protection
against coercive police practices, without regard to objective proof of the underlying intent of the police. A practice that the police
should know is reasonably likely to evoke an
incriminating response from a suspect thus
amounts to interrogation. But, since the police
surely cannot be held accountable for the

App. 68
unforeseeable results of their words or actions, the deﬁnition of interrogation can extend only to words or actions on the part of
police ofﬁcers that they should have known
were reasonably likely to elicit an incriminating response.
Rhode Island v. Innis, 446 U.S. 291, 300-02 (1980). Mr.
Spruill argues, as he did before the OCCA, that pursuant to Innis, Detective Lambrecht’s statement regarding self-defense was the “functional equivalent” of
interrogation. He further argues that Mr. Spruill was
intoxicated, unsophisticated and fearful of the authorities when he made incriminating statements.
The OCCA found that Mr. Spruill was in custody
when he made the statements at issue, that he had repeatedly requested the presence of an attorney, that
the authorities had never read the warning required
by Miranda, and that Mr. Spruill had refused to sign a
waiver indicating that he understood his rights. Doc.
No. 104 at 3-4. Citing Innis as well as State law, however, the OCCA determined the trial court did not
abuse its discretion in admitting the statements into
evidence. The OCCA found the statements were not
made in response to interrogation from authorities and
were “volunteered to virtually anyone who would listen while [Mr. Spruill] was at the police department.”
Doc. No. 10-4 at 4. The OCCA further found Mr. Spruill
had changed his mind about talking to the authorities
only through counsel:
“ ‘Once a suspect in custody has asserted
his right to speak only through counsel, all

App. 69
attempts at interrogation must cease. A suspect can, however, change his mind and decide
to speak to police without counsel.’ ” Underwood v. State, 2011 Ok Cr 12, ¶ 33, 252 P.3d at
238. There is no constitutional prohibition to
admission of these statements at trial despite
Appellant’s requests for counsel, see Frederick
v. State, 2001 OK CR 34, ¶¶ 92-93, 37 P.3d
908, 934, or his intoxication. Coddington v.
State, 2006 OK CR 34, ¶ 38, 142 P.2d 437,
448. Appellant’s argument that he was uninformed of his rights and fearful of authorities
when he made these statements is also not
supported by the record.
Doc. No. 10-4 at 4-5.
Oklahoma law regarding the voluntariness of
statements made under the inﬂuence of intoxicants is
well-settled:
“[S]elf-induced intoxication, short of mania, or
such impairment of the will and mind as to
make the person confessing unconscious of
the meaning of his words, will not render a
confession inadmissible, but goes only to the
weight to be accorded to it.”
Coddington v. State, 142 P.3d 437, 448 (Okla. Crim.
App. 2006) (quoting Moles v. State, 520 P.2d 822, 824
(Okla. Crim. App. 1974)); see also, United States v.
Muniz, 1 F.3d 1018, 1022 (10th Cir.1993) (“ ‘[t]he state
of intoxication does not automatically render a statement involuntary.’ ”); Dickerson v. United States, 530
U.S. 428, 434 (2000) (test for determining voluntariness of confession is “whether a [suspect’s] will was

App. 70
overborne by the circumstances surrounding the giving of a confession.”) (internal quotation marks omitted).
The decision of the OCCA on this issue is not “so
erroneous that there is no possibility fairminded jurists could disagree that the state court’s decision conﬂicts with [the Supreme] Court’s precedents.” Nevada
v. Jackson, 569 U.S. 505, 50809 (2013). Additionally, the
ﬁndings of fact determined in the state court proceedings, to which this Court must give deference, were not
unreasonable determinations in light of the evidence
presented.
Having failed to meet the high standard of demonstrating the custodial statements were admitted during the trial in violation of the Constitution, Mr. Spruill
is not entitled to habeas relief on this ground.
B. Ground Two: Sufficiency of the Evidence
to Disprove Self-Defense
Petitioner contends, as he did on direct appeal,
that the State failed to present sufﬁcient evidence at
trial to prove he did not act in self-defense when he
shot Mr. McCray. When a defendant raises self-defense
as the justiﬁcation for a criminal act, the Due Process
Clause requires the State to prove beyond a reasonable
doubt that the act was not done in self-defense. See
Mullaney v. Wilbur, 421 U.S. 684, 705 (1970).
The appropriate standard of review for a sufﬁciency of the evidence claim is “whether, ‘after viewing

App. 71
the evidence in the light most favorable to the prosecution, any rational trier of fact could have found the
[petitioner guilty] beyond a reasonable doubt.’ ” Dockins v. Hines, 374 F.3d 935, 939 (10th Cir. 2004) (quoting
Jackson v. Virginia, 443 U.S. 307, 319 (1979)). “This
standard of review respects the jury’s responsibility to
weigh the evidence and to draw reasonable inferences
from the testimony presented at trial.” Dockins, 374
F.3d at 939. “Because ‘[s]ufﬁciency of the evidence is a
mixed question of law and fact, [w]e ask whether the
facts are correct and whether the law was properly applied to the facts, which is why we apply both 28 U.S.C.
§ 2254(d)(1) and (d)(2) when reviewing sufﬁciency of
the evidence on habeas.’ ” Diestel v. Hines, 506 F.3d
1249, 1267 (10th Cir. 2007) (quoting Maynard v. Boone,
468 F.3d 665, 673 (10th Cir. 2006)). The question to be
resolved is “whether the OCCA’s conclusion that the
evidence was sufﬁcient constituted an unreasonable
application of the Jackson standard.” Patton v. Mullin,
425 F.3d 788, 796 (10th Cir. 2005).
It is undisputed that after Ms. Grantham confronted Mr. Spruill about the noise she had heard from
upstairs, he went downstairs to her apartment armed
with a gun he legally carried regularly and banged
on her apartment door. He, himself, admitted making
inappropriate statements as he stood outside the
apartment door. Trial Transcript (“Tr.”) 1567-1568. Mr.
Spruill testiﬁed that almost in one movement Mr.
McCray opened the door, grabbed him by the neck,
pulled him into the apartment, threw him down

App. 72
between two chairs, fell on top of him and started choking him. Tr. 1570-1571.
But Ms. Grantham testiﬁed that when Mr. McCray
opened the door, Mr. Spruill “stumbled” inside the
apartment, whereupon Mr. McCray told Mr. Spruill to
leave and tried to push him out the door. Tr. 728-729.
According to Ms. Grantham, it was only after Mr.
McCray was unable to get Mr. Spruill to leave, that the
two men began to ﬁght, stumbling over a chair about
ten feet from the door. Tr. 730, 733. Ms. Grantham testiﬁed that Mr. McCray was on top of Mr. Spruill, but
she could not see either man’s hands. After she heard
gunshots, Ms. Grantham saw Mr. McCray get up,
bleeding from the chest. Tr. 337.
One of the residents of the apartment complex,
Patrick Folmer, witnessed some of the events that
night. He testiﬁed that he saw Mr. Spruill “budging”
his way through Mr. McCray’s apartment door, going
all the way inside the apartment. Tr. 663-665. He did
not remember seeing Mr. McCray putting his hands
around Mr. Spruill’s neck or pulling him into the apartment, but he admitted that it was possible. Tr. 693-694.
“Self-defense is an afﬁrmative defense which admits the elements of the charge, but offers a legal
justification for conduct which would otherwise be
criminal.” Davis v. State, 268 P.3d 86, 114 (Okla. Crim.
App. 2011). Under Oklahoma law, a defendant is justified in using deadly force only if a reasonable person
in the defendant’s circumstances and from the defendant’s viewpoint would reasonably have believed he

App. 73
was in imminent danger of death or great bodily injury.
Id. The defense is not available to an aggressor or to
one who voluntarily enters into a situation armed with
a deadly weapon, id. at 115, nor is it available to one
who engages in mutual combat. West v. State, 798 P.2d
1083, 1085 (Okla. Crim. App. 1990). Moreover, a trespasser has the right to defend himself only after he has
tried every reasonable means of escaping the imminent danger of great bodily harm or death. “[A] person
is a trespasser if that person has refused to leave the
land of another after a lawful request to leave has been
made to him.” Jones v. State, 201 P.3d 869, 886 (Okla.
Crim. App. 2009). The OCCA determined that the evidence was sufﬁcient to demonstrate Mr. Spruill was a
trespasser and the aggressor, making the assertion of
self-defense unavailable to him. Citing Okla. Stat. tit.
21, § 1289.25 (2009),2 the OCCA determined “the victim had an absolute right under these circumstances
to defend himself, and his family, using deadly force inside his home.” Doc. No. 10-4 at 7.
In this case, the reasoning and fact-ﬁnding of the
OCCA is persuasive, and the OCCA cited and applied

2

“A person who is not engaged in an unlawful activity and
who is attacked in any other place where he or she has a right to
be has no duty to retreat and has the right to stand his or her
ground and meet force with force, including deadly force, if he or
she reasonably believes it is necessary to do so to prevent death
or great bodily harm to himself or herself or another or to prevent the commission of a forcible felony.” Okla. Stat. tit. 21,
§ 1289.25(D) (2009).

App. 74
the correct standard of review as mandated by Jackson
v. Virginia, 443 U.S 307, 319 (1979):
Taken in the light most favorable to the State,
evidence was presented at trial to allow any
rational trier of fact to ﬁnd beyond a reasonable doubt the absence of self-defense and
the existence of the elements of the lesserincluded offense of ﬁrst-degree manslaughter.
Doc. No. 10-4 at 7-8.
The OCCA considered the entire record and
properly accepted the credibility ﬁndings of the jury.
Considering the amount of evidence elicited at trial,
this Court concludes the OCCA’s decision is neither
contrary to the law set forth in Jackson v. Virginia, nor
does it demonstrate an unreasonable application of the
law to the facts in this case. Thus, habeas relief is not
warranted.
C. Ground Three: Right to Present Expert
Evidence on Force
Mr. Spruill contends he was denied his opportunity
to present a complete defense when the trial court
granted the State’s motion to exclude John Boren’s expert testimony on use of force. Mr. Boren proffered his
testimony to the trial court in an in-camera hearing on
the State’s Motion in Limine Tr. 1676-1690. Mr. Boren
would have testiﬁed that he had examined all the evidence in the case and had conducted experiments, recreating the incident with men approximating the
weight and size of Mr. McCray and Mr. Spruill. Mr.

App. 75
Boren would have testiﬁed that it would have been impossible for Mr. Spruill to escape from Mr. McCray. Tr.
1682-1687. The trial court granted the State’s Motion
in Limine and excluded Mr. Boren’s testimony. Relying
on state law, the OCCA found the trial court had not
abused its discretion in excluding Mr. Boren’s testimony. In afﬁrming the decision, the OCCA held the
probative value of the evidence was substantially outweighed by the danger of “unfair prejudice, confusion
of the issues and misleading the jury.” Doc. No. 10-4 at
9.
Generally, admissibility of evidence is a matter of
state law for which federal habeas corpus relief is not
available. See Estelle v. McGuire, 502 U.S. 62, 67–68,
(1991); see also Bullock v. Carver, 297 F.3d 1036, 1055
(10th Cir. 2002) (“Generally speaking, a state court’s
misapplication of its own evidentiary rules . . . is insufﬁcient to grant habeas relief.”). On habeas review, this
Court can review state court evidentiary rulings only
“ ‘to determine whether the error was so grossly prejudicial that it fatally infected the trial and denied the
fundamental fairness that is the essence of due process.’ ” Hooker v. Mullin, 293 F.3d 1232, 1238 (10th Cir.
2002) (quoting Williamson v. Ward, 110 F.3d 1508,
1522 (10th Cir.1997)). In other words, federal habeas
relief does not lie for errors of state law absent a determination that the state court’s ﬁnding was so arbitrary
and capricious as to constitute an independent due
process violation. Fields v. Gibson, 277 F.3d 1203, 1220
(10th Cir. 2002) (citing Lewis v. Jeffers, 497 U.S. 764,
780 (1990)). Thus, a habeas petitioner’s burden is a

App. 76
heavy one; he must show that the state’s failure to follow its own law is arbitrary in the constitutional sense;
that is, it must shock the judicial conscience. Aycox v.
Lytle, 196 F.3d 1174, 1180 (10th Cir. 1999).
“Because a fundamental-fairness analysis is not
subject to clearly deﬁnable legal elements, when engaged in such an endeavor a federal court must tread
gingerly and exercise considerable self-restraint.”
Duckett v. Mullin, 306 F.3d 982, 999 (10th Cir. 2002)
(internal quotation marks and citation omitted). The
“[i]nquiry into fundamental fairness requires examination of the entire proceedings, including the strength
of the evidence against the petitioner . . . [and] [a]ny
cautionary steps—such as instructions to the jury—offered by the court. . . .” Le v. Mullin, 311 F.3d 1002,
1013 (10th Cir.2002).
It does not appear that either the trial court or the
OCCA misapplied Oklahoma’s evidentiary rules in
this case. Moreover, the evidence against Mr. Spruill,
including the evidence that he was not acting in selfdefense, was convincing. Mr. Spruill was a trespasser
and the aggressor who came to the scene with a deadly
weapon. He testiﬁed that he was unable to break Mr.
McCray’s hold on him. The jury was properly instructed on the law regarding self-defense and the
elements of manslaughter. Under these circumstances,
the exclusion of John Boren’s expert testimony on use
of force did not make Mr. Spruill’s trial fundamentally
unfair. Habeas relief should not be granted on this
ground.

App. 77
RECOMMENDATION
Based on the foregoing ﬁndings, it is recommended the Petition for a Writ of Habeas Corpus,
brought pursuant to 28 U.S.C. § 2254, be DENIED. The
parties are advised of their respective right to ﬁle an
objection to this Report and Recommendation with the
Clerk of this Court by September 19th, 2019, in accordance with 28 U.S.C. § 636 and Fed. R. Civ. P. 72. The
failure to timely object to this Report and Recommendation waives appellate review of the recommended
ruling. Moore v. United States of America, 950 F.2d 656
(10th Cir. 1991); cf. Marshall v. Chater, 75 F.3d 1421,
1426 (10th Cir. 1996) (“Issues raised for the ﬁrst time
in objections to the magistrate judge’s recommendation are deemed waived.”).
This Report and Recommendation disposes of all
issues referred to the undersigned Magistrate Judge
in the captioned matter. Any motions not speciﬁcally
ruled on are denied.
ENTERED this 30th day of August, 2019.
/s/ Gary M. Purcell
GARY M. PURCELL
UNITED STATES
MAGISTRATE JUDGE

App. 78
2018 OK CR 25
IN THE COURT OF CRIMINAL APPEALS OF
THE STATE OF OKLAHOMA
ETHAN JOHNSON SPRUILL, ) FOR
) PUBLICATION
Appellant,
)
v.
) No. F-2016-629
)
STATE OF OKLAHOMA,
)
Appellee.
)
)
SUMMARY OPINION
(Filed Jul. 19, 2018)
HUDSON, JUDGE:
¶1 Appellant, Ethan Johnson Spruill, was tried
by a jury and convicted in Cleveland County District
Court, Case No. CF-2014-322, of First Degree Manslaughter, in violation of 21 O.S.2011, § 711(2).1 The
jury recommended as punishment twenty-three (23)
years imprisonment. The Honorable Tracy Schumacher,
District Judge, sentenced Spruill in accordance with
the jury’s verdict.2 Spruill now appeals. He raises the
following propositions of error on appeal:

1

Appellant was charged and tried for First Degree Murder.
Appellant was convicted, however, of the lesser-included offense
of First Degree Manslaughter.
2
Under 21 O.S.2011, § 13.1, Spruill must serve 85% of the
sentence imposed before he is eligible for parole.

App. 79
I.

APPELLANT WAS DENIED HIS CONSTITUTIONAL PROTECTIONS AGAINST
SELF-INCRIMINATION THROUGH A
DELIBERATE EFFORT BY LAW ENFORCEMENT TO OBTAIN AND RECORD INCRIMINATING STATEMENTS
FROM AN INTOXICATED, UNSOPHISTICATED SUSPECT, IN VIOLATION
OF THE FEDERAL AND STATE CONSTITUTIONS;

II. THE STATE FAILED TO PROVE BEYOND A REASONABLE DOUBT THAT
APPELLANT WAS NOT ACTING IN
SELF-DEFENSE AT THE TIME HE
SHOT AND KILLED AARON MCCRAY,
MAKING THE EVIDENCE INSUFFICIENT TO SUPPORT HIS CONVICTION; and
III. THE TRIAL COURT ERRED IN REFUSING TO PERMIT DEFENSE USE-OFFORCE EXPERT TESTIMONY TO AID
AND ASSIST THE JURY IN ITS DETERMINATION OF WHETHER APPELLANT WAS ACTING IN SELF-DEFENSE
IN THE SHOOTING INCIDENT.
¶2 After thorough consideration of the entire
record before us on appeal, including the original record, transcripts, exhibits and the parties’ briefs, we
ﬁnd that no relief is required under the law and evidence. Appellant’s Judgment and Sentence is therefore
AFFIRMED.

App. 80
I
¶3 The trial court did not abuse its discretion in
denying the motion to suppress Appellant’s statements. Johnson v. State, 2012 OK CR 5, ¶ 11, 272 P.3d
720, 726 (reciting standard of review for motion to suppress); Mitchell v. State, 2011 OK CR 26, ¶ 13, 270 P.3d
160, 169 (same). “The Fifth Amendment right [to counsel] arises when one who is in custody is interrogated.”
Taylor v. State, 2018 OK CR 6, ¶ 6, ___ P.3d ___ (citing
Miranda v. Arizona, 384 U.S. 436, 469-70, 86 S. Ct.
1602, 1625-26, 16 L. Ed. 2d 694 (1966)). “Under Miranda, no statement obtained through custodial interrogation may be used against a defendant without a
knowing and voluntary waiver of those rights.” Taylor,
2018 OK CR 6, ¶ 6 (citing Miranda, 384 U.S. at 444, 86
S. Ct. at 1612).
¶4 The record shows that Appellant was in custody at the time of his various recorded statements;
that Appellant requested the presence of counsel repeatedly starting at the moment he was arrested in
front of his apartment; that Appellant’s statements
were unwarned—that is, authorities never read him
the warning mandated by Miranda, 384 U.S. at 479, 86
S. Ct. at 1630; and that Appellant refused to sign any
waiver indicating that he understood his rights. However, the record also shows that Appellant’s statements
were not made in response to interrogation from authorities. See Rhode Island v. Innis, 446 U.S. 291, 30001, 100 S. Ct. 1682, 1689-90, 64 L. Ed. 2d 297 (1980)
(the term “interrogation” for Miranda purposes “refers
not only to express questioning, but also to any words

App. 81
or actions on the part of the police (other than those
normally attendant to arrest and custody) that the
police should know are reasonably likely to elicit an
incriminating response from the suspect.”). Rather,
Appellant’s statements were volunteered to virtually
anyone who would listen while he was at the police department. Volunteered statements of any kind are not
barred by the Fifth Amendment. Miranda, 384 U.S. at
478, 86 S. Ct. at 1630.
¶5 “Once a suspect in custody has asserted his
right to speak only through counsel, all attempts at interrogation must cease. A suspect can, however, change
his mind and decide to speak to police without counsel.” Underwood v. State, 2011 OK CR 12, ¶ 31, 252
P.3d 221, 238 (internal citation omitted). Here, the
State met its burden to prove that Appellant’s statements were the product of an essentially free and unconstrained choice by Appellant. Id., 2011 OK CR 12,
¶ 33, 252 P.3d at 238. There is no constitutional prohibition to admission of these statements at trial despite
Appellant’s requests for counsel, see Frederick v. State,
2001 OK CR 34, ¶¶ 92-93, 37 P.3d 908, 934, or his intoxication. Coddington v. State, 2006 OK CR 34, ¶ 38,
142 P.3d 437, 448. Appellant’s argument that he was
uninformed of his rights and fearful of authorities
when he made these statements is also not supported
by the record. Proposition I is denied.

App. 82
II
¶6 “Self-defense is an afﬁrmative defense which
admits the elements of the charge, but offers a legal
justiﬁcation for conduct which would otherwise be
criminal.” Davis v. State, 2011 OK CR 29, ¶ 95, 268 P.3d
86, 114; 21 O.S.2011, § 733. Pursuant to Oklahoma law,
a person is justiﬁed in using deadly force if a reasonable person in the circumstances and from the defendant’s viewpoint would reasonably have believed that
he was in imminent danger of death or great bodily injury. Davis, 2011 OK CR 29, ¶ 95, 268 P.3d at 114. Appellant maintained, from his arrest through trial, that
he acted in self-defense and the district court fully instructed the jury on self-defense. Thus, “the State was
obligated to prove, beyond a reasonable doubt, that Appellant did not act in self-defense.” McHam v. State,
2005 OK CR 28, ¶ 10, 126 P.3d 662, 667.
¶7 The State presented evidence showing that
Appellant forced his way inside the victim’s apartment
after earlier confronting the victim’s wife upstairs. The
evidence showed Appellant aggressively pounded on
the victim’s front door while yelling threats and accusing them of abusing their children. The evidence was
undisputed that Appellant was intoxicated and had
had prior disputes with the victim about noise disturbances. At all times, Appellant was armed with the murder weapon, a fully loaded .38 revolver. True, Appellant
testiﬁed that he was pulled inside the apartment by
the victim. The victim’s wife, however, disputed Appellant’s version of events. She testiﬁed that Appellant
stumbled inside the apartment then forcefully resisted

App. 83
and pushed back when the victim told Appellant to
leave and attempted to push Appellant back outside.
Appellant’s own words to authorities, along with the
rest of the State’s evidence, showed he was the aggressor who instigated this entire deadly affair.
¶8 Self-defense is not available to an aggressor
or one who voluntarily enters into a situation armed
with a deadly weapon. Davis, 2011 OK CR 29, ¶ 95, 268
P.3d at 115. Nor may self-defense be invoked by one
who enters into mutual combat. West v. State, 1990 OK
CR 61, ¶ 7, 798 P.2d 1083, 1085. We have also held that
a trespasser’s right to self-defense arises only after the
trespasser has availed himself of every reasonable
means of escape from the imminent danger of death or
great bodily harm. When Appellant refused to leave after being told by the victim, and forcefully resisted the
victim’s reasonable efforts to push him outside the
apartment, Appellant was clearly a trespasser. Jones v.
State, 2009 OK CR 1, ¶ 66, 201 P.3d 869, 886; Walston
v. State, 1979 OK CR 69, ¶¶ 6-7, 597 P.2d 768, 770-71.
¶9 The State’s evidence established that the victim had an absolute right under these circumstances
to defend himself, and his family, using deadly force inside his home. 21 O.S.2011, § 1289.25. “Where there is
conﬂict in the testimony, this Court will not disturb the
verdict on appeal if there is competent evidence to support the jury’s ﬁnding.” Davis, 2011 OK CR 29, ¶ 83,
268 P.3d at 112. Taken in the light most favorable to
the State, sufﬁcient evidence was presented at trial to
allow any rational trier of fact to find beyond a reasonable doubt the absence of self-defense and the

App. 84
existence of the elements of the lesser-included offense
of ﬁrst degree manslaughter. Jackson v. Virginia, 443
U.S. 307, 319, 99 S. Ct. 2781, 2789, 61 L. Ed. 560 (1979);
Spuehler v. State, 1985 OK CR 132, ¶ 7, 709 P.2d 202,
203-04. Proposition II is denied.
III
¶10 We review a district court’s evidentiary rulings for abuse of discretion. Cuesta-Rodriguez v. State,
2010 OK CR 23, ¶ 14, 241 P.3d 214, 224. In this context,
an abuse of discretion has been deﬁned as “any unreasonable or arbitrary action made without proper consideration of the relevant facts and law, also described
as a clearly erroneous conclusion and judgment,
clearly against the logic and effect of the facts.” Cripps
v. State, 2016 OK CR 14, ¶ 4, 387 P.3d 906, 908. Relevant evidence may be excluded under 12 O.S.2011,
§ 2403 “if its probative value is substantially outweighed by the danger of unfair prejudice, confusion of
the issues, misleading the jury, undue delay, needless
presentation of cumulative evidence, or unfair and
harmful surprise.”
¶11 Here, the probative value of John Boren’s
proposed expert testimony was substantially outweighed by the danger of unfair prejudice, confusion of
the issues and misleading the jury. It was also cumulative to evidence already presented. The trial court
did not abuse its discretion in disallowing this proposed testimony. Appellant was not deprived of his
constitutional right to present a complete defense. 12

App. 85
O.S.2011, §§ 2401-03; 12 O.S.Supp.2013, § 2702; Simpson v. State, 2010 OK CR 6, ¶¶ 9-10, 230 P.3d 888, 895
(and cases cited therein); Pavatt v. State, 2007 OK CR
19, ¶ 42, 159 P.3d 272, 286 (and cases cited therein).
Proposition III is denied.
DECISION
¶12 The Judgment and Sentence of the district
court is AFFIRMED. Pursuant to Rule 3.15, Rules of
the Oklahoma Court of Criminal Appeals, Title 22, Ch.
18, App. (2018), the MANDATE is ORDERED issued
upon delivery and ﬁling of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
CLEVELAND COUNTY THE HONORABLE
TRACY SCHUMACHER, DISTRICT JUDGE
APPEARANCES AT
TRIAL
MACK K. MARTIN
AMBER B. MARTIN
MARTIN LAW OFFICE
125 PARK AVENUE,
5TH FLOOR
OKLAHOMA CITY, OK
73102
COUNSEL FOR
DEFENDANT

APPEARANCES ON
APPEAL
MACK K. MARTIN
AMBER B. MARTIN
MARTIN LAW OFFICE
125 PARK AVENUE,
5TH FLOOR
OKLAHOMA CITY, OK
73102
COUNSEL FOR
APPELLANT

App. 86
DAVID STOCKWELL
ATTORNEY AT LAW
119 EAST MAIN
NORMAN, OK 73069
COUNSEL FOR
DEFENDANT

MIKE HUNTER
OKLAHOMA ATTORNEY
GENERAL
THEODORE M. PEEPER
ASSISTANT ATTORNEY
GENERAL
313 N.E. 21ST STREET
OKLAHOMA CITY, OK
73105
COUNSEL FOR APPELLEE

JOHN PEVEHOUSE
ZACHARY SIMMONS
ASSISTANT DISTRICT ATTORNEYS
201 SOUTH JONES, SUITE 300
NORMAN, OK 73069
COUNSEL FOR THE STATE
OPINION BY: HUDSON, J.
LUMPKIN, P.J.:
CONCUR
LEWIS, V.P.J.:
CONCUR
KUEHN, J.:
CONCUR
ROWLAND, J.:
CONCUR

App. 87
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

ETHAN JOHNSON SPRUILL,
Petitioner - Appellant,
v.
JEROLD BRAGGS, JR.,
Warden,

No. 20-6009
(D.C. No. 5:19-CV-00442-D)
(W.D. Okla.)

Respondent - Appellee.
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

(Filed Oct. 28, 2020)
Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.
-----------------------------------------------------------------------

Appellant’s petition for rehearing is denied.
The petition for rehearing en Banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge

App. 88
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

